<html>
<title> - COMPREHENSIVE IMMIGRATION REFORM: BECOMING AMERICANS--U.S. IMMIGRANT INTEGRATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 COMPREHENSIVE IMMIGRATION REFORM: BECOMING AMERICANS--U.S. IMMIGRANT 
                              INTEGRATION

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                CITIZENSHIP, REFUGEES, BORDER SECURITY,
                         AND INTERNATIONAL LAW

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 16, 2007

                               __________

                           Serial No. 110-27

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov

                                ------





                     U.S. GOVERNMENT PRINTING OFFICE

35-450 PDF                 WASHINGTON DC:  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing
Office  Internet: bookstore.gpo.gov Phone: toll free (866)512-1800
DC area (202)512-1800  Fax: (202) 512-2250 Mail Stop SSOP, 
Washington, DC 20402-0001




















                       COMMITTEE ON THE JUDICIARY

                 JOHN CONYERS, Jr., Michigan, Chairman
HOWARD L. BERMAN, California         LAMAR SMITH, Texas
RICK BOUCHER, Virginia               F. JAMES SENSENBRENNER, Jr., 
JERROLD NADLER, New York                 Wisconsin
ROBERT C. SCOTT, Virginia            HOWARD COBLE, North Carolina
MELVIN L. WATT, North Carolina       ELTON GALLEGLY, California
ZOE LOFGREN, California              BOB GOODLATTE, Virginia
SHEILA JACKSON LEE, Texas            STEVE CHABOT, Ohio
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      CHRIS CANNON, Utah
WILLIAM D. DELAHUNT, Massachusetts   RIC KELLER, Florida
ROBERT WEXLER, Florida               DARRELL ISSA, California
LINDA T. SANCHEZ, California         MIKE PENCE, Indiana
STEVE COHEN, Tennessee               J. RANDY FORBES, Virginia
HANK JOHNSON, Georgia                STEVE KING, Iowa
LUIS V. GUTIERREZ, Illinois          TOM FEENEY, Florida
BRAD SHERMAN, California             TRENT FRANKS, Arizona
TAMMY BALDWIN, Wisconsin             LOUIE GOHMERT, Texas
ANTHONY D. WEINER, New York          JIM JORDAN, Ohio
ADAM B. SCHIFF, California
ARTUR DAVIS, Alabama
DEBBIE WASSERMAN SCHULTZ, Florida
KEITH ELLISON, Minnesota

            Perry Apelbaum, Staff Director and Chief Counsel
                 Joseph Gibson, Minority Chief Counsel
                                 ------                                

          Subcommittee on Immigration, Citizenship, Refugees, 
                 Border Security, and International Law

                  ZOE LOFGREN, California, Chairwoman

LUIS V. GUTIERREZ, Illinois          STEVE KING, Iowa
HOWARD L. BERMAN, California         ELTON GALLEGLY, California
SHEILA JACKSON LEE, Texas            BOB GOODLATTE, Virginia
MAXINE WATERS, California            DANIEL E. LUNGREN, California
MARTIN T. MEEHAN, Massachusetts      J. RANDY FORBES, Virginia
WILLIAM D. DELAHUNT, Massachusetts   LOUIE GOHMERT, Texas
LINDA T. SANCHEZ, California
ARTUR DAVIS, Alabama
KEITH ELLISON, Minnesota

                    Ur Mendoza Jaddou, Chief Counsel
                    George Fishman, Minority Counsel























                            C O N T E N T S

                              ----------                              

                              MAY 16, 2007

                           OPENING STATEMENT

                                                                   Page
The Honorable Zoe Lofgren, a Representative in Congress from the 
  State of California, and Chairwoman, Subcommittee on 
  Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................     1
The Honorable Steve King, a Representative in Congress from the 
  State of Iowa, and Ranking Member, Subcommittee on Immigration, 
  Citizenship, Refugees, Border Security, and International Law..     4
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Chairman, Committee on the 
  Judiciary......................................................     6

                               WITNESSES

Mr. Gary Gerstle, Ph.D., Professor of History, Vanderbilt 
  University
  Oral Testimony.................................................     9
  Prepared Statement.............................................    12
Mr. Ruben G. Rumbaut, Ph.D., Professor of Sociology, University 
  of California, Irvine
  Oral Testimony.................................................    21
  Prepared Statement.............................................    23
Mr. Donald Kerwin, Executive Director, Catholic Legal Immigration 
  Network, Inc.
  Oral Testimony.................................................    50
  Prepared Statement.............................................    51
Mr. John Fonte, Ph.D., Senior Fellow, Hudson Institute
  Oral Testimony.................................................    55
  Prepared Statement.............................................    57

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California, and Chairwoman, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     3
Prepared Statement of the Honorable John Conyers, Jr., a 
  Representative in Congress from the State of Michigan, and 
  Chairman, Committee on the Judiciary...........................     7
Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................     7

                                APPENDIX
               Material Submitted for the Hearing Record

Letter from a Majority of the Minority Members of the 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law requesting a Minority day of 
  hearing to the Honorable Zoe Lofgren, Chairwoman, Subcommittee 
  on Immigration, Citizenship, Refugees, Border Security, and 
  International Law..............................................    86
Letter from Gary Gerstle, Ph.D., Professor of History, Vanderbilt 
  University to the Honorable Steve King, Ranking Member, 
  Subcommittee on Immigration, Citizenship, Refugees, Border 
  Security, and International Law................................    87
Responses to Post-Hearing Questions from Gary Gerstle, Ph.D., 
  Professor of History, Vanderbilt University....................    90
Responses to Post-Hearing Questions from Ruben G. Rumbaut, Ph.D., 
  Professor of Sociology, University of California, Irvine.......    94
Responses to Post-Hearing Questions from Donald Kerwin, Executive 
  Director, Catholic Legal Immigration Network, Inc..............   108
Responses to Post-Hearing Questions from John Fonte, Ph.D., 
  Senior Fellow, Hudson Institute................................   111
















 
 COMPREHENSIVE IMMIGRATION REFORM: BECOMING AMERICANS--U.S. IMMIGRANT 
                              INTEGRATION

                              ----------                              


                        WEDNESDAY, MAY 16, 2007

                  House of Representatives,
Subcommittee on Immigration, Citizenship, Refugees, 
             Border Security, and International Law
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:37 a.m., in 
Room 2141, Rayburn House Office Building, the Honorable Zoe 
Lofgren (Chairwoman of the Subcommittee) presiding.
    Present: Representatives Lofgren, Gutierrez, Berman, 
Jackson Lee, Waters, Sanchez, Ellison, Conyers, King, 
Goodlatte, and Gohmert.
    Staff present: Ur Mendoza Jaddou, Najority Chief Counsel; 
J. Traci Hong, Majority Counsel; George Fishman, Minority 
Counsel; and Benjamin Staub, Professional Staff Member.
    Ms. Lofgren. This hearing of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and 
International Law will come to order.
    I would like to welcome the Immigration Subcommittee 
Members, our witnesses, and members of the public who are here 
today for the Subcommittee's ninth hearing on comprehensive 
immigration reform.
    We started our series of hearings at Ellis Island, where we 
examined the need for comprehensive immigration reform to 
secure our borders, to address economic and demographic 
concerns, and we reviewed our Nation's rich immigrant history.
    We studied immigration reform from 1986 and 1996 in an 
effort to avoid the mistakes of the past. We have considered 
the problems with and proposed solutions for our current 
employment and work site verification systems.
    In light of recent proposals by the White House to 
eliminate family priorities in immigration and replace it with 
a completely new and untested point system, we studied the 
contributions of family immigrants to America and various 
immigration point systems used around the world.
    The genius of America has always been our strength as a 
society. People from all over the world come to America to 
become Americans with us.
    When a new citizen raises her hand to become an American at 
her citizenship ceremony, she pledges her future to America. 
She promises to defend our country and our Constitution. And 
she immediately inherits a grand history of her new country 
from George Washington to today.
    Today, some fear that America has lost this exceptional 
status, and some contend that, unlike immigrants from other 
generations, immigrants today are not assimilating fast enough 
or at all.
    One clear and objective sign of assimilation is the process 
by which immigrants master the English language. The census and 
various academic studies and research show that immigrants and 
their descendants are learning English at a rate comparable to 
the past waves of immigrants.
    According to the 2005 American Community Survey conducted 
by the U.S. Census Bureau, 82 percent of immigrants 24 and 
older report that they speak English well or very well. Younger 
immigrants fare even better. Ninety-five percent of immigrants 
from 18 to 23 report speaking English well or very well. By the 
third generation, most grandchildren of immigrants can, in 
fact, speak only English, even in heavily Spanish-speaking 
areas of the country such as Southern California.
    Our first witness, Professor Gerstle, explains that the 
Southern and Eastern Europeans who immigrated to the United 
States a century ago and are now held up as model immigrants 
were once depicted much as immigrants of today: unable and 
unwilling to assimilate. Yet, the professor explains, these 
European immigrants did well in joining American society.
    He finds that these so-called new immigrants of then 
successfully integrated into the United States, despite such 
hostility, because of three factors: the ability of immigrants 
to participate in American democracy, the natural transition 
from immigrants to their children, with the ability of 
immigrants to achieve economic security.
    He states that the, ``ability of immigrants to participate 
in politics and to feel as though their votes made a difference 
was crucial to their engagement with and integration into 
America.''
    He also notes that an, ``immigrant population that finds 
itself unable to move out of poverty or to gain the confidence 
that it can provide a decent life for their children is far 
more likely to descend into alienation than to embrace 
America.''
    What we can learn from this historical account is that 
including immigrants in mainstream American society and the 
economy is the quickest way to assimilation and integration.
    If creating new Americans is the goal of our immigration 
policy, then we should ensure that comprehensive immigration 
reform reflects that objective.
    Purely temporary worker programs with little opportunity 
for those who contribute to our economy to become full members 
of the country that they have helped to build run contrary to 
the goal of Americanism and assimilation, because such programs 
relegate people to a life in a permanent underclass.
    Furthermore, under purely temporary worker programs, there 
is little incentive and little time to learn English if, after 
2 years or 3 years of full-time work in the U.S., the only 
choice is returning home to a non-English-speaking country.
    As we develop comprehensive immigration reform, we must not 
forget that mandating and facilitating the process for 
immigrants to learn English is important but not sufficient in 
achieving the goal of assimilation and allowing new immigrants 
to become Americans.
    The opportunity to become fully participating members of 
our polity, our civic society, and our economy is a key to, as 
Professor Gerstle so pointedly discusses in his written 
testimony, allowing new immigrants to become our new Americans.
    I would now recognize the Ranking Member for his opening 
statement.
    [The prepared statement of Ms. Lofgren follows:]
 Prepared Statement of the Honorable Zoe Lofgren, a Representative in 
Congress from the State of California, and Chairwoman, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law
    I would like to welcome the Immigration Subcommittee Members, our 
witnesses, and members of the public to the Subcommittee's tenth 
hearing on comprehensive immigration reform.
    We started our series of hearings at Ellis Island where we examined 
the need for comprehensive immigration reform to secure our borders, to 
address economic and demographic concerns, and we reviewed our nation's 
rich immigrant history. We have studied immigration reform from 1986 
and 1996 in an effort to avoid the mistakes of the past. We've 
considered the problems with and proposed solutions for our current 
employment and worksite verification system. In light of recent 
proposals by the White House to eliminate family priorities in 
immigration and replace it with a completely new and untested point 
system, we studied the contributions of family immigrants to America 
and various immigration point systems used around the world.
    Today we turn our attention to the integration of immigrants in our 
society. Some contend that unlike immigrants from other generations, 
immigrants today are not assimilating fast enough.
    One clear and objective sign of assimilation is the process by 
which immigrants master the English language. The Census and various 
academic studies and research show that immigrants and their 
descendants are learning English at a rate comparable to past waves of 
immigrants. According to the 2005 American Community Survey conducted 
by the U.S. Census Bureau, 82% of immigrants 24 and older report that 
they speak English well or very well. Younger immigrants fare even 
better. 95% of immigrants from 18 to 23 report speaking English well or 
very well. By the third generation, most grandchildren of immigrants 
can in fact speak only English, even in heavily Spanish-speaking areas 
of the country, such as Southern California.
    More importantly, our first witness, Professor Gerstle, explains 
that the southern and eastern Europeans who immigrated to the United 
States a century ago and are now held up as model immigrants, were once 
depicted much as immigrants of today--unable and unwilling to 
assimilate.
    Yet, Professor Gerstle explains, these European immigrants did well 
in joining American society. He finds that these ``new immigrants'' 
successfully integrated into the United States despite such hostility 
because of three factors: 1) the ability of immigrants to participate 
in American Democracy, 2) natural transition from immigrants to their 
children; and 3) ability of immigrants to achieve economic security. He 
states that ``[t]he ability of immigrants to participate in politics 
and to feel as though their votes made a difference was crucial to 
their engagement with and integration into America.'' He also notes 
that ``[a]n immigrant population that finds itself unable to move out 
of poverty or to gain the confidence that it can provide a decent life 
for their children is far more likely to descend into alienation than 
to embrace America.''
    What we can learn from this historical account is that including 
immigrants in mainstream American society and the economy is the 
quickest way to assimilation and integration.
    If assimilation is a goal of our immigration policy, then we should 
ensure that comprehensive immigration reform reflects that objective. 
Purely temporary worker programs with little opportunity for those who 
contribute to our economy to become full members of the country that 
they've helped to build run contrary to the goal of assimilation, 
because such programs relegate people to a life in a permanent 
underclass. Furthermore, under purely temporary worker programs, there 
is little incentive and little time to learn English if, after two or 
three years of full-time work in the U.S., the only choice is returning 
home to a non-English-speaking country.
    As we develop comprehensive immigration reform with an eye towards 
assimilation, we must not forget that mandating and facilitating the 
process for immigrants to learn English is important, but it is 
certainly not sufficient to accomplish assimilation. It is the 
opportunity to become fully participating members of our polity and our 
economy that is the key to successful immigrant assimilation, as 
Professor Gerstle so poignantly discusses in his written testimony.

    Mr. King. Thank you, Madam Chair.
    As I expressed to the witnesses this morning, I appreciate 
you being here and committing your time to the knowledge base 
of this Congress, this panel, and the American people.
    However, nothing in these hearings will replace hearings on 
national legislation when we can actually examine the language 
and have input on the impact of that language on the American 
life with that policy that might come from specific language.
    But facing us on the back wall of this hearing room, we are 
looking at our national seal. And on the seal is our Nation's 
motto, ``E Pluribus Unum.'' And that means, of course, out of 
many, one.
    This motto was proposed by a Committee appointed by 
Congress on July 4, 1776. And on that Committee were John 
Adams, Ben Franklin, and Thomas Jefferson.
    Lest there be any doubt about what meaning was intended by 
our founders in choosing that phrase, ``E Pluribus Unum,'' I 
point out that the design they proposed for the seal was not 
the eagle originally as you see today, but rather a shield 
containing the six symbols for ``the countries from which these 
states have been peopled.''
    The patriotic assimilation of new immigrants has been a 
primary objective of our immigration policy since our Nation's 
birth.
    Washington recommended that assimilation into the 
mainstream of American life and values be encouraged so that 
immigrants and native-born Americans would soon become one 
people.
    Only within the last generation or so have the terms 
assimilation and Americanization given way to cultural 
pluralism and multiculturalism.
    The title of this hearing uses the word ``integration,'' a 
term that is defined in the American Heritage Dictionary as the 
bringing of people of different racial or ethnic groups into an 
unrestricted and equal association as in a society or 
organization or, alternatively, mostly we understand it to mean 
desegregation.
    That term, however, does not capture the spirit of 
Americans. In a public speech after the publication of the 1995 
report by the U.S. Commission on Immigration Reform, Barbara 
Jordan declared that the term Americanization earned a bad 
reputation when it was stolen by racists and xenophobes in the 
1920's. But it is our word, and we are taking it back, 
according to Barbara Jordan.
    She explained, ``When using the term Americanization, the 
commission means the cultivation of a shared commitment to the 
American values of liberty, democracy and equal opportunity, 
something that is possible regardless of the nationality or 
religious background of immigrants and their children. We view 
Americanization positively as the inclusion of all who wish to 
embrace the civic culture which holds our Nation together.''
    I agree with her on this policy. We need to refocus our 
priorities on helping those who are here legally now and help 
them embrace our new country by emphasizing the rapid learning 
of our common language of English by instilling core American 
values, the deals of our constitutional republic and by 
ensuring that immigrants' loyalty to America and not to the 
country from which they came is achieved.
    There are tens of thousands of people who have marched in 
the streets of America under thousands of flags of foreign 
countries, chanting for another nation--this doesn't give me 
confidence that we have established the Americanization or the 
assimilation that we need to hold this country together under 
one cultural foundation.
    Teddy Roosevelt spoke to it powerfully in a number of his 
writings and statements.
    But I would skip forward and say that, on a different 
subject, the minority requested a hearing for last week because 
we were denied the opportunity to present a witness of our 
choice from the previous week.
    What transpired was the use of the hearing process to 
demean the efforts of Mr. Willard Fair, one of our volunteer 
witnesses as well. He is the President and CEO of Urban League 
of Greater Miami, and he has worked for 40 years to help the 
lives of African-Americans and increase their employment.
    He was not allowed to answer or respond to the questions 
that were peppered at him, and I believe that we need to treat 
you all with that level of respect and deference. And I insist 
that we do so.
    But when I asked for unanimous consent for Mr. Fair to 
respond to those questions, there was an objection, and that is 
something that I hope does not happen again with any of the 
witnesses. I want to hear it from you myself.
    And so with that, I would say also that there was a 
rebuttal to the Rector study, and I hope that we can have a 
panel here to allow Mr. Rector to be able to face his accusers. 
I read the rebuttal. I didn't find any facts in that rebuttal.
    But what I do have here is a request for a minority 
hearing, Madam Chair, and I would ask unanimous consent that 
the letter be introduced into the record, and hopefully we can 
move forward with the proper edification of this panel and the 
people of this country as they observe our process here.
    This is a very pivotal issue that is before us in this 
Congress. There is no putting the toothpaste back in the tube. 
We had better get it right. We can learn from history. We can 
learn from facts.
    And as the Chair stated last week, we are entitled to our 
own opinions. We are not entitled to our own facts. The facts 
are in the Rector study. They do not include national interest 
or national defense in his conclusions. They are only there so 
that you can draw your own calculation if you choose, but not 
in Rector's conclusions.
    I look forward to hearing from him, and I hope that we can 
have that kind of a hearing in the future.
    Thank you, Madam Chair, and I would yield back.
    Ms. Lofgren. Without objection, the letter will be made a 
part of the record and dealt with according to the rules.
    [The letter referred to is inserted in the Appendix.]
    Ms. Lofgren. I would now recognize the Chairman of the full 
Committee, Mr. John Conyers, for his statement.
    Mr. Conyers. Thank you, and good morning, Madam Chairperson 
and Members of the Committee and our very important witnesses 
here.
    This, to me--and I congratulate you, Ms. Lofgren--is a 
philosophical inquiry that we are making today. Are new 
immigrant groups any different from old immigrant groups? That 
is a great subject to kick around on a Wednesday morning.
    And I am so happy to hear that the Ranking Subcommittee 
Member, Steve King, tell me that we need to refocus our 
energies on those who are doing their best to make it here, 
because that means he has come a little distance from an 
assertion that I remember him making that we have gotten so 
messed up in the immigration issue that even legal immigration 
is unworkable. And I am happy to know that that is a direction 
that he is moving in.
    Now, are the new wave of immigrants different from the ones 
that came from Germany in 1751, or Ireland in 1856, or from 
China in 1882, or from Italy in 1896, or from Mexico in 1956, 
and now, of course, the Latino groups from Latin America?
    And what I am thinking is that this discussion becomes 
critical to our understanding of what our job is about: reform, 
major reform, of the immigration law, because it is very easy 
to get caught in a time warp.
    That is to say what we are looking at now--and some might 
say, ``This is different, Conyers, don't you get it? This isn't 
the 18th century or the 19th century or the 20th century. This 
is different. And if you don't understand that, we are not 
going to be able to get anywhere.''
    And so this discussion amongst us and with our witnesses 
becomes important because it attempts to pull another layer off 
the onion that gets us to the importance of what it is we are 
going to do legislatively.
    We have been given another week by the Senate. I think that 
is critical. I was very nervous when I came in to ask what 
finally happened late last night.
    But it just occurred to me that the first person killed in 
Iraq was Lance Corporal Jose Antonio Gutierrez, an illegal 
immigrant, if you please, who was undocumented. Our country 
gave him a chance, a home, a career in the military, and he was 
just one of millions who have embraced America's promise of 
freedom and opportunity.
    And so, yes, I say, time and time again, we have worried 
about whether some people can assimilate satisfactorily into 
this so-called American melting pot. And time and time again, 
these fears have proven to be completely unfounded.
    So I look forward to all of the witnesses, including the 
minority's witness as well, to join us in this discussion this 
morning. And I thank you for this opportunity.
    [The prepared statement of Mr. Conyers follows:]
Prepared Statement of the Honorable John Conyers, Jr., a Representative 
in Congress from the State of Michigan, and Chairman, Committee on the 
                               Judiciary
    At an earlier hearing before this Subcommittee, one of the 
witnesses remarked that while America is a nation of immigrants, it is 
also a nation that loves to discuss immigration policy.
    Time and time again, Americans have fretted about whether the next 
new group of immigrants would ever assimilate into American society and 
American values--the so-called American Melting Pot. But, time and time 
again, these fears have been proven to be completely unfounded.
    In the current debate on immigration, for example, conservative 
commentator Selwyn Duke just yesterday inveighed against any 
immigration (legal or not). He warned, ``[R]eplace our population with 
a Mexican or Moslem one and you no longer have a western civilization, 
you no longer have America. You have Mexico North or Iran West.''
    As we have heard in other hearings before this Subcommittee, 
however, nothing can be further from the truth. immigrants create jobs, 
fill niches in our economy, and display American values of family and 
patriotism. We find immigrants and their children in all aspects of 
American life, at church, in 4-H clubs or girl scouts, and in college. 
These contributions should be praised, not denigrated.
    I would point out that the first American killed in Iraq, Lance 
Corporal Jose Antonio Gutierrez, was an immigrant. Corporal Guitierrez 
first arrived in the United States as an undocumented immigrant. 
America gave him a chance--a home, a career in the military, and 
something in which to believe. Corporal Gutierrez was one of the 
millions of immigrants who have embraced America's promise of freedom 
and opportunity.
    So too did immigrants and children of immigrants in the Asian and 
Hispanic communities served with distinction in World War II and other 
conflicts. Nevertheless, they have had to constantly fight for 
recognition of their sacrifice. The Hispanic Caucus has worked to draw 
our attention to this issue, and I join them in lauding the 
contributions of immigrant servicemembers to this country.
    And if immigrants to our nation retain their heritage and bring it 
into the American experience, so much the better for our national 
culture.
    We owe it to Corporal Guteirrez, and to all of those who will come 
after him, to devise an immigration system that is controlled, orderly, 
and fair. Just imagine all of the great things they will do for 
America.

    Ms. Lofgren. Thank you, Mr. Conyers.
    Noting that we have witnesses to hear from, without 
objection, all Members of the Committee are invited to submit 
their statements for the record.
    [The prepared statement of Ms. Jackson Lee follows:]
       Prepared Statement of the Honorable Sheila Jackson Lee, a 
    Representative in Congress from the State of Texas, and Member, 
 Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
                         and International Law
    Today we continue these series of hearings dealing with 
comprehensive immigration reform. This subcommittee previously dealt 
with the shortfalls of the 1986 and 1996 immigration reforms, the 
difficulties employers face with employment verification and ways to 
improve the employment verification system. On Tuesday May 1, 2007 we 
explored the point system that the United Kingdom, Canada, Australia, 
and New Zealand utilize, and on May 3, 2007 the focus of the discussion 
was on the U.S. economy, U.S. workers and immigration reform. Last week 
we took a look at another controversial aspect of the immigration 
debate, family based immigration. Today we continue the vital task of 
eliminating the myths and seeking the truth. Today's hearing deals with 
probably the most crucial aspect underlying the immigration debate, an 
immigrant's ability to integrate, and assimilate into American society.
    Let me start by quoting my predecessor the late great Barbara 
Jordan: ``We are a nation of immigrants, dedicated to the rule of law. 
That is our history--and it is our challenge to ourselves. It is 
literally a matter of who we are as a nation and who we become as a 
people.''
    Allow me to talk about our nation's history. I find that quote 
particularly interesting in light of the recent celebration of the 400 
year anniversary of the settlement of Jamestown. Yes we are talking 
about a different time period, but imagine if that first group of 
individuals was met with the hostility and disregard for decency that 
today's immigrant population faces. Imagine if these folks were 
demonized, and disparaged by a wide network of Native Americans, in the 
same manner that we demonize the current documented and undocumented 
population.
    It was not to long ago that we held a field hearing underneath the 
shadow of the Statue of Liberty at Ellis Island. I remind my colleagues 
of the famous inscription on that monument of freedom, hope, and 
inspiration that many immigrants saw as they pulled into Ellis Island 
full of hopes and dreams, ``Give me your tired, your poor, your huddled 
masses yearning to breathe free, The wretched refuse of your teeming 
shore. Send these, the homeless, tempest-tost to me, I left my lamp 
beside the golden door.'' Now we want to close this door because of the 
lies and the hysteria created by a few in the Nativist and 
Restrictionist camps.
    There is an old saying, if you do not learn your history you are 
doomed to repeat it. There was a time when our nation had the same 
reservations about Italian and Irish immigrants that came to this 
country at the start of the 20th century. Fast forward to 2007 and one 
of the leading candidates for the Republican nomination for President, 
Rudy Guliani is the descendant of Italian immigrants, and Bill O'Reily 
an individual well respected by my colleagues on the other side of the 
aisle is the descendant of Irish immigrants, and no one would argue 
that they have had any problems assimilating into our society. In fact 
they represent the natural progression to full fledged Americans that 
occurs when the children of immigrants have kids and their kids have 
kids. I look down the aisle and I see Rep. Luis Gutierrez, Member of 
Congress and the child of immigrants. I look behind me and I have a 
staffer Ted Hutchinson, an attorney and the child of immigrants. 
Therefore it should be quite evident that immigrants have a long 
successful history of assimilation and achievement in this nation.
    Let me take a moment to describe how my immigration legislation, 
H.R. 750, the ``Save America Comprehensive Immigration Reform'' 
addresses this issue of integration and assimilation. Save mandates 
that immigrants earn their legalization by 1) successfully completing a 
course on reading, writing, and speaking ordinary English words, and 2) 
showing that he has accepted the values and cultural life of the United 
States. Save also requires the completion of 40 community service 
hours. For children Save requires that school age kids are successfully 
pursuing an education. These are the values that make are nation great 
education, community service, and the acceptance of our system of 
democracy. With these requirements we can all be ensured that those who 
seek a better opportunity here in the United States will embrace this 
country as their own.
    Likewise embracing the ideals and value systems of the United 
States is something that all immigrants have exemplified from Ellis 
Island to the sandy beaches of Key West, Florida. Are we no longer the 
melting pot? When the pilgrims came they did not leave their culture 
behind so you can not expect any group of immigrants, Latino, European, 
or African to leave their culture behind either. This mixture of 
cultures is what defines cities like New York, Los Angeles, Miami, and 
Chicago, and makes this nation wonderful. However no groups of 
immigrants come to this country as a collective whole with the purpose 
of disregarding the value system that they seek to be a part of. That 
does not make any sense, that is not true, and it is simply un-
American.

    Without objection, the Chair is authorized to declare a 
recess of the hearing at any time.
    We have a distinguished panel of witnesses here today to 
help us consider the important issues before us.
    I would like to extend a warm welcome to Dr. Gary Gerstle, 
a Professor of History at Vanderbilt University. Dr. Gerstle's 
research has focused on the nexus between immigration, race, 
and nationhood. His co-authored college textbook, Liberty, 
Equality, Power: A History of the American People, will soon 
enter its fifth edition. He comes to Vanderbilt after teaching 
at the University of Maryland, the University of Pennsylvania, 
and the School for Advanced Studies in the Social Sciences in 
Paris. In addition to his teaching and research 
responsibilities, he serves on the editorial board of the 
Journal of American History. He earned his doctorate degree in 
history from Harvard University.
    We will next hear from Dr. Ruben G. Rumbaut, Professor of 
Sociology at the University of California, my home State, at 
Irvine. A native of Havana, Cuba, Dr. Rumbaut has conducted 
world-renowned research on immigration, including his current 
work on the landmark Children of Immigrants Longitudinal Study, 
which began in 1991, and the large-scale study of immigration 
and intergenerational mobility in metropolitan Los Angeles. He 
was a fellow at the Center for Advanced Study in the Behavioral 
Sciences at Stanford, my alma mater, and the founding chair of 
the Section on International Migration of the American 
Sociological Association, and a member of the Committee on 
Population in the National Academy of Sciences. He received his 
bachelor's degree from Washington University in St. Louis, a 
master's degree from San Diego State University, and a master's 
and doctoral degree from Brandeis University.
    I am pleased to next welcome Donald Kerwin, the executive 
director of the Catholic Legal Immigration Network Inc, or 
CLINIC, since 1993. CLINIC, a public interest legal corporation 
and a subsidiary of the United States Conference of Catholic 
Bishops, supports a national network of 161 charitable legal 
programs for immigrants, from more than 260 locations across 
the Nation. Prior to his work at CLINIC, Mr. Kerwin practiced 
law as an associate with the Washington law firm of Patton 
Boggs. He serves as an advisor to the conference of Catholic 
Bishops' Committee on Migration, a member of the American Bar 
Association's Commission on Immigration, and a fellow at the 
Migration Policy Institute. He earned his bachelor's degree 
from Georgetown University and his law degree from the 
University of Michigan Law School.
    Finally, we are pleased to welcome the minority's witness, 
Dr. John Fonte, the Director of the Center for American Common 
Culture and Senior Fellow at the Hudson Institute here in 
Washington. In addition to his work at the Hudson Institute, 
Dr. Fonte has worked as a senior researcher at the U.S. 
Department of Education and a program administrator at the 
National Endowment for the Humanities. He holds a bachelor's 
and master's degree from the University of Arizona and his 
Ph.D. in world history from the University of Chicago.
    Each of you has written statements, which I have read with 
great interest, and they will all be made part of the record in 
their entirety. I would ask that each of you summarize your 
testimony in 5 minutes or less, and to stay within that time 
you can see there is a little machine on the desk.
    When the light turns yellow, it means that you have 1 
minute. And when it turns red--this always surprises witnesses 
because the time flies--it means that 5 minutes are actually 
up, and we would ask that you summarize your last sentence so 
that we can hear from all the witnesses and then also get to 
questions.
    So if we would begin, Dr. Gerstle?

    TESTIMONY OF GARY GERSTLE, Ph.D., PROFESSOR OF HISTORY, 
                     VANDERBILT UNIVERSITY

    Mr. Gerstle. I wish to thank you for the invitation to 
appear before your Committee today.
    Since its founding, the United States has arguably 
integrated more immigrants, both in absolute and relative 
terms, than any other nation.
    In the years between the 1820's and 1920's, an estimated 35 
million immigrants came to the United States. Approximately 40 
million to 50 million more came between the 1920's and the 
2000's, with most of those coming after 1965.
    The immigrants who came in the first wave are thought to 
have been enormously successful in integrating themselves into 
American society.
    We are here today because many Americans doubt the ability 
or willingness of the immigrants of the second wave, especially 
those who have come since 1965, to replicate the success of 
that earlier wave.
    I am here to offer you the benefit of my historical 
knowledge regarding these earlier immigrants and to draw 
conclusions about what their experience means for today's 
immigrants.
    My main points are as follows. First, that the integration 
process of earlier immigrants, especially the 20-plus million 
who came from Eastern and Southern Europe in the years from 
1880 to 1920, has been mythologized as quick, easy, and 
unproblematic.
    In fact, these immigrants were widely regarded then as many 
immigrants are regarded today, as radically different in 
culture and values from Americans and as lacking the desire and 
ability to integrate themselves into American society.
    Their integration would ultimately be an outstanding 
success, but it took about 50 years. It required a generational 
transition in these immigrant communities, and engagement on 
the part of these immigrants with American democracy, and an 
opportunity for them to achieve economic security for 
themselves and their families.
    My second point: are there too many immigrants present in 
American society today even to contemplate a successful 
campaign to integrate them all? My answer to that is no. 
Immigrant density was greater 100 years ago than it is today.
    Twenty-four million came into a society in 1900 that 
numbered only 76 million people. To match that immigrant 
density today, we would have to admit four times as many 
immigrants a year and sustain that for a decade.\1\
---------------------------------------------------------------------------
    \1\ In a May 22, 2007, letter to the Honorable Steve King, Gary 
Gerstle revised his prediction for how many immigrants would have to be 
admitted a year for the next decade in order for the immigrant density 
of the early 21st century to match the immigrant density of the early 
20th century. Gerstle said the correct number is one million. The 
rationale for the revision was presented in substantial detail in the 
letter of May 22, 2007, a copy of which was filed with the House 
Subcommittee on Immigration, Citizenship, Refugees, Border Security, 
and International Law, the Honorable Zoe Lofgren, Chairwoman.
---------------------------------------------------------------------------
    Third point: there is greater diversity culturally and 
economically among today's immigrants than those who came 100 
years ago.
    However, for the majority of today's immigrants who are 
poor and non-White, the distance of their values and cultural 
traditions from mainstream America is no greater than what 
separated native-born Americans and immigrants 100 years ago.
    That we integrated the last wave should give us confidence 
that we can integrate this wave, too.
    Fourth point: that confidence must be grounded in a 
realistic and robust sense of what successful immigrant 
incorporation requires.
    Immigrant incorporation requires two generations in time 
and a generational transition within immigrant families and 
communities during that time so that the power of the first 
generation recedes and the power of the second generation comes 
to the fore.
    Successful immigrant integration also requires immigrant 
engagement with American democracy, becoming citizens and 
active participants in American politics. And it also requires 
the achievement of economic security.
    The institutions that were once so important in the early 
20th century in bringing immigrants into politics and aiding 
their quest for economic security--political parties and the 
labor movement-- are no longer as well positioned to continue 
performing that role.
    Either these institutions must find ways to broaden their 
involvement with immigrants, or other institutions such as the 
Catholic Church must step forward to take their place.
    Fifth point, and my final point, engaging immigrants in 
American democracy and broadening the access of the immigrant 
poor to economic opportunity and security will, in the short 
term, yield as much contention as it will yield comity.
    But if done right, it will work to bind together the 
foreign-born and immigrant-born into one American Nation and 
demonstrate yet again the remarkable ability of America to take 
in people from very different parts of the world, to make them 
into Americans, and in the process to reinvigorate the power of 
American ideals and the promise of American life for all who 
have had the good fortune to make themselves a home on U.S. 
soil.
    We should try to make this happen again. Thank you very 
much.
    [The prepared statement of Mr. Gerstle follows:]
                   Prepared Statement of Gary Gerstle



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. Thank you very much, Doctor.
    Dr. Rumbaut?

 TESTIMONY OF RUBEN G. RUMBAUT, Ph.D., PROFESSOR OF SOCIOLOGY, 
                UNIVERSITY OF CALIFORNIA, IRVINE

    Mr. Rumbaut. Chairwoman Lofgren, Chairman Conyers, Ranking 
Member King and Members of the Judiciary Committee and the 
Immigration Subcommittee, thank you very much for the 
opportunity to appear at this hearing.
    I could never have imagined when I arrived in this country 
on the eve of my 12th birthday, speaking no English at all, 
that one day 46 years later I would be speaking to a 
congressional Committee, in English, about the fate of 
immigrant languages in the U.S. and of immigrants' acquisition 
of English. But life, like history, is full of surprises and 
often unfolds like a telenovela on a Spanish-language T.V. 
channel in L.A.
    I use that metaphor deliberately because two summers ago, 
in the Nielsen ratings of the 10-most-watched T.V. programs in 
the huge television market of greater Los Angeles, where I live 
and work, nine of the top 10 prime time programs were 
telenovelas, broadcast in Spanish, by KMEX, the Univision 
channel. It was ``La Madrastra'' Tuesday, ``La Madrastra'' 
Wednesday, ``La Madrastra'' Monday, ``Apuesta Por Un Amor'' 
Tuesday, and number nine was ``CSI'', and then ``La Madrastra'' 
Friday, which, you know, came in last.
    Such anecdotes would seem to support the concerns that have 
been expressed by some that immigrant integration today, and 
especially their linguistic assimilation, in areas of 
geographic concentration is being slowed or even reversed to 
the point of threatening the predominance of English in the 
United States, above all, among Spanish-speaking Latin 
Americans, most notably Mexicans in Southern California and 
Cubans in South Florida.
    However, as the evidence from the census itself, from the 
American Community Survey that was just cited by Chairwoman 
Lofgren, and from every major national and regional study 
shows, compellingly and incontrovertibly, including cross-
sectional and longitudinal surveys carried out in Los Angeles 
and San Diego and Miami, the process of linguistic assimilation 
to English today is occurring perhaps more quickly than ever in 
U.S. history.
    I have summarized that evidence in detail in my written 
statement, including an analysis of the determinants of English 
fluency, et cetera, so I need not repeat it here, except to 
highlight a few main points.
    First, the evidence documents a pattern of very rapid 
language transition from the first to the second and third 
generations, a switch to English that is completed before the 
third generation for most immigrant groups, and by or before 
the third generation even for those of Mexican origin in Los 
Angeles and of Cuban origin in Miami.
    The power of assimilative forces is nowhere clearer than in 
the linguistic switch across the generations.
    But in addition to that, secondly, longitudinal studies, 
such as our own Children of Immigrants Longitudinal Study, 
which have followed a large sample of children of immigrants 
representing 77 different nationalities for more than 10 years 
in San Diego and Miami have documented the extraordinarily 
rapid switch to English in degrees of proficiency, preference 
and use for all groups.
    Tables 6 and 7 in my written statement have specific 
information in that regard.
    But just to give you a taste of it, by early adulthood, by 
their mid-20's, over 93 percent of the Mexicans in San Diego 
and 98 percent of the Cubans in Miami preferred English over 
Spanish. And for some of the other groups, it was 100 percent.
    And third, we carried out an analysis of what we call 
linguistic life expectancies for all the main immigrant groups 
concentrated in Southern California from San Diego on the 
Mexican border to Los Angeles and demonstrated the generational 
point at which language death occurs.
    Even for Mexican Spanish in Los Angeles, one of the largest 
Spanish-speaking cities in the world, where the adult immigrant 
parents may be watching ``La Madrastra'' on T.V. in one room, 
but their kids are watching ``CSI'' and ``American Idol'' in 
the room next door in English. Indeed, the parents may talk to 
them in Spanish but they will answer back in English.
    Additional point: English proficiency has always been a key 
to socioeconomic mobility for immigrants and to their full 
participation in their adopted society.
    The last person you need to tell that to is an immigrant, 
who came to the United States precisely with that in mind. 
Today is no different in that respect.
    In fact, the United States has been described as a language 
graveyard because of its historical ability to absorb millions 
of immigrants, as Professor Gerstle mentioned, and to 
extinguish their mother tongues within a few generations. And 
Spanish appears to offer no threat to this reputation, 
unfortunately.
    English has never been seriously threatened as the dominant 
language of the United States. And with nearly 250 million 
English monolinguals in the U.S. today, it is certainly not 
threatened today, not even in Southern California.
    For that matter, English has become firmly established 
throughout the world as the premier international language of 
commerce, diplomacy, education, journalism, technology, the 
Internet, and mass culture.
    Ms. Lofgren. Dr. Rumbaut, your light is on. If you could 
wrap up, that would be----
    Mr. Rumbaut. What is endangered instead is the 
survivability of the non-English languages that immigrants 
bring with them to the United States, and whether the loss of 
such assets is desirable or not is, of course, another matter.
    Thank you very much.
    [The prepared statement of Mr. Rumbaut follows:]
                 Prepared Statement of Ruben G. Rumbaut


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Ms. Lofgren. Thank you very much.
    Mr. Kerwin?

TESTIMONY OF DONALD KERWIN, EXECUTIVE DIRECTOR, CATHOLIC LEGAL 
                   IMMIGRATION NETWORK, INC.

    Mr. Kerwin. Madam Chairwoman, Chairman Conyers, 
distinguished Members of the Subcommittee, I appreciate the 
opportunity to testify before you today on the importance of 
citizenship in immigrant integration.
    There are more than 11 million lawful permanent residents 
in the United States who are eligible or who will soon be 
eligible to apply for citizenship. As you know, citizenship 
confers important rights and responsibilities. It is a 
precondition for full membership in our society.
    In our experience, the naturalization process is also a 
focal point for a range of integration activities. These 
include English classes, citizenship classes, home ownership 
seminars, and provision of public health information.
    Earlier this year, my agency released a report titled ``A 
More Perfect Union: A National Citizenship Plan.'' The report 
is based on more than 100 interviews and the best thinking of 
an advisory group of 22 experts on this issue.
    It details the resources, partnerships, and commitments 
that would be necessary to achieve the following goals. First, 
to create a federally led citizenship initiative that could 
play a central role in what we hope will be an emerging 
national immigrant integration policy.
    Second, to increase naturalization numbers and rates so 
that more immigrants can contribute fully to our Nation.
    Third, to make the naturalization process more meaningful 
by deepening the knowledge and commitment of immigrants to our 
Nation's history, political institutions, and democratic 
ideals.
    Fourth, to increase opportunities for citizenship by 
expanding English-as-a-second-language and citizenship 
instruction.
    Fifth, to address barriers to citizenship like proposed fee 
increases and security clearances that can drag on for 3 years 
or 4 years.
    Sixth, to build stronger bonds between the native-born and 
naturalized.
    And seventh, to forge strong public-private partnerships in 
support of all of these goals.
    Our plan details how a wide range of stakeholders--faith 
communities; Federal, State and local government; business; 
labor; civic organizations and others--can promote citizenship.
    While it includes hundreds of recommendations, I have 
included just 13 key proposals in my written testimony. For 
example, we propose that charitable agencies expand their 
citizenship services, particularly by offering more group 
naturalization processing sessions.
    My agency now funds and supports naturalization sessions in 
21 communities, a number that we hope to increase, some of 
those communities represented by you.
    Many other networks, like the New American Initiative in 
Illinois, have also mobilized to do this work. These sessions, 
at modest cost, allow large numbers of immigrants to apply to 
naturalize.
    They also help to prepare charitable agencies for the 
massive amounts of work they will need to assume if 
comprehensive immigration reform legislation is to pass and be 
successful.
    We also recommend that the Office of Citizenship be funded 
sufficiently so that it can coordinate a national citizenship 
program and can support the work of community-based 
organizations.
    Federal leadership and coordination will be essential to a 
national citizenship drive. The Office of Citizenship, which 
has a $3 million budget and does not currently have grant-
making authority, needs to be strengthened if it is to play 
this role.
    We support increased funding for ESL and citizenship 
classes. Lack of proficiency in English and the shortage of 
such classes represent a major barrier to citizenship.
    In addition, federally funded ESL classes do not typically 
cover civics or citizenship issues.
    We also support the efforts of the U.S. Citizenship and 
Immigration Services to develop a more meaningful citizenship 
test, and we particularly support more meaningful preparation 
for this test.
    Of course, we also hope that the revised test does not 
preclude worthy immigrants from taking this important step.
    While immigration is a volatile issue, we have found broad 
and deep support for citizenship. We worry that the national 
debate over how many and what types of immigrants to accept may 
overshadow the many contributions that immigrants make to our 
Nation.
    We also worry that this debate may obscure our need to 
promote immigrant integration and attachment to our Nation's 
core principles.
    We believe that a national citizenship plan would represent 
a step in the right direction, and we pledge our gifts and 
resources to this important goal.
    We thank you for taking on this issue.
    [The prepared statement of Mr. Kerwin follows:]
                  Prepared Statement of Donald Kerwin
    Madam Chairwoman and distinguished Members of the Subcommittee, my 
name is Donald Kerwin and I am the Executive Director of the Catholic 
Legal Immigration Network, Inc. (CLINIC). I appreciate the opportunity 
to testify before you today on the role of citizenship in immigrant 
integration.
    CLINIC, a subsidiary of the U.S. Conference of Catholic Bishops 
(USCCB), supports a national network of 161 charitable legal programs 
for immigrants. These programs represent roughly 400,000 low-income 
immigrants each year, including lawful permanent residents who wish to 
become U.S. citizens. Over the last decade, CLINIC has directed 
programs that have assisted more than 80,000 immigrants to obtain 
citizenship. We now fund and support group naturalization processing 
events in 21 communities, including in communities represented by 
several Members on the Judiciary Committee. We hope to expand this 
number in the upcoming weeks.
    Earlier this year, CLINIC published a report titled A More Perfect 
Union: A National Citizenship Plan which can be found at http://
www.cliniclegal.org/DNP/citzplan.html. The report reflects extensive 
research, more than 100 interviews with immigration service and policy 
experts, and the best thinking of a 22-person advisory committee. It 
attempts to set forth the resources, activities, and partnerships that 
would be required to carry out a national citizenship plan. The report 
will form the basis of this testimony.
                 citizenship and immigrant integration
    The strength and vitality of our nation will increasingly depend on 
the contributions of its 37 million foreign-born residents. We cannot 
afford to assume that the integration of a population of this magnitude 
and diversity will occur automatically or easily. As President Bush 
recognized in creating the Task Force on New Americans, integration 
will require sound policies, contributions from all the key sectors in 
society, and a coordinated strategy. Citizenship should play a central 
role in an immigrant integration strategy for four main reasons.
    First, citizenship represents a pre-condition to the full 
membership of immigrants in our nation. Its benefits include the right 
to vote and to hold public office, timely family reunification, and 
enhanced employment and educational opportunities. It allows immigrants 
to contribute more fully to the good of our nation.
    Second, the naturalization process represents a focal point for 
immigrant integration activities. Most importantly, it provides the 
occasion to educate immigrants on U.S. history, civic values and 
political institutions. This effort must go beyond preparing immigrants 
for the civics test. Naturalization--culminating in the oath of 
allegiance at the swearing-in ceremony--should lead immigrants to 
become better informed about the Constitution, fully committed to our 
democratic ideals, engaged in the political process, and represented in 
the political system. In a nation united by a common creed, this goal 
could not be more important. Citizenship programs also provide services 
as diverse as English-as-a-Second-Language (ESL) instruction, 
citizenship classes, home-ownership seminars, and medical information. 
These activities contribute to greater proficiency in English, closer 
community ties, and integration into a wider circle of people and 
institutions.
    Third, a national citizenship plan would address an immense need. 
According to the Pew Hispanic Center, 8.5 million U.S. residents were 
eligible to naturalize in 2005 based on their years as lawful permanent 
residents, with an additional 2.8 million soon to be eligible (Passel, 
2007, pp. 7-8). A national citizenship initiative would benefit 
millions of immigrants and their families.
    Fourth, citizenship offers a unique opportunity for collaboration 
between different sectors of society. CLINIC developed A More Perfect 
Union: A National Citizenship Plan based on the input of experts with 
different competencies and perspectives. Although immigration can be a 
volatile issue, CLINIC has found wide and bi-partisan support for 
citizenship. Our plan details how key ``stakeholders''--government at 
all levels, schools, faith communities, business, labor unions, civic 
organizations, and others--can contribute to a coordinated citizenship 
program. Of course, these institutions have historically served as 
vehicles for immigrant integration.
    Immigrants also value citizenship. Fully 90 percent view 
citizenship as something ``necessary and practical'' or ``a dream come 
true'' (Farkas, Duffett and Johnson, 2003, p. 29). This should come as 
no surprise. The vast majority of immigrants want what most of the rest 
of us do in life: to pursue a livelihood, to support their families, to 
contribute to their nation, to live in security and to practice their 
faith.
    While naturalization rates and numbers have increased in recent 
years, only 53 percent of those admitted as lawful permanent residents 
11 to 20 years ago have naturalized (Passel, 2007, p. 15). Any 
citizenship plan would need to address why millions fail to apply to 
naturalize when they become eligible. Lack of proficiency in English 
represents the most common reason. Fifty-five (55) percent of 
immigrants who are otherwise eligible to naturalize and 67 percent of 
those who will soon be eligible have limited English proficiency 
(Passel, 2007, p. 11). In many communities, waiting lists for English 
classes stretch several months. Yet these programs represent the only 
structured way for many low-income immigrants to learn English.
    Other barriers to citizenship include lack of knowledge about the 
legal requirements and benefits of naturalization, a paucity of 
professional assistance to guide immigrants through this process, the 
inability to afford the application fee (a problem that will increase 
if proposed fee increases go into effect), and application processing 
problems. As an example of the latter, FBI Director Mueller reported 
security delays of more than one year in 44,843 naturalization cases as 
of May 2006. While we support strong security clearance procedures, 
CLINIC's network of charitable programs handles many naturalization 
cases that have been pending for three and even four years.
                            recommendations
    Despite the widely acknowledged benefits of citizenship, the United 
States does surprisingly little to promote the naturalization process. 
A More Perfect Union: A National Citizenship Plan calls for a national 
mobilization in support of citizenship, identifying the roles of 
government, immigrant service agencies, and other sectors of society. 
It describes a program that could serve as the linchpin of an emerging 
U.S. immigrant integration strategy. A few key recommendations follow.
    First, immigration service providers should significantly expand 
their naturalization work, offering group workshops and related 
services. These events should be sponsored and supervised by charitable 
organizations with immigration attorneys or with staff ``accredited'' 
by the Board of Immigration Appeals. In addition, they should use 
trained volunteers and follow stringent quality control standards for 
eligibility screening and application review.
    CLINIC and other immigrant-service networks have significantly 
increased their commitment to naturalization services in recent months, 
both as a good in itself and as a way to prepare to implement 
immigration reform legislation. These workshops require charitable 
programs to rent space, to conduct community outreach, to serve large 
numbers of people, and to recruit and train volunteers (including pro 
bono attorneys). This work anticipates what they will need to do in 
order to ensure the success of comprehensive immigration reform 
legislation.
    Second, the U.S. Citizenship and Immigration Service's (USCIS's) 
Office of Citizenship (OoC) should receive sufficient federal funding 
to coordinate a national citizenship program. At present, OoC's annual 
budget of roughly $3 million and its lack of grant-making authority 
significantly limit its activities. Similarly, USCIS should not be 
required to support its operations entirely on fee revenue. Adequate 
funding would allow USCIS to forego onerous fee increases that will 
deny access to citizenship to many immigrants. It would also help USCIS 
to reduce its backlogs, update its technology, and improve its customer 
services. USCIS should also be given greater access to fee-account 
revenue so that it can respond to sudden increases in applications.
    Third, charitable agencies need additional resources to expand 
their significant work in this area. Of course, this need will increase 
dramatically if comprehensive immigration reform legislation passes. 
Federal support should be provided to networks of direct service 
providers that are engaged in naturalization outreach, intake, 
application assistance, ESL classes, citizenship instruction, and test 
preparation. Non-profit organizations that are ``recognized'' by the 
Board of Immigration Appeals or supervised by an attorney should be the 
preferred anchors in local collaborative programs. Charitable service 
agencies, including those in CLINIC's network, stand ready to partner 
with the federal government on a national citizenship effort, as well 
as on implementation of comprehensive immigration reform legislation.
    Fourth, the federal government should help to coordinate, increase, 
and sustain the citizenship work now being performed by others; it 
should not supplant existing efforts. State, local, philanthropic, and 
corporate interests should partner with the federal government--perhaps 
matching federal dollars--to expand naturalization services, including 
English language instruction. The Office of Citizenship should track 
funding from these sources and issue an annual report that publicizes 
the achievements of a national program.
    Fifth, a national citizenship program should bring together the 
leadership, resources, and talents of the nation's public and private 
sectors. It should also engage the native-born, naturalized, and future 
citizens in the program's design and implementation. A national program 
should ensure that lawful permanent residents enjoy access to 
citizenship, regardless of their socio-economic status or ethnic 
background. It should make a special effort to reach those who 
naturalize at the lowest rates. However, it should also assure that 
sufficient services be provided to those who can self-file and who need 
less information and assistance.
    Sixth, the Office of Citizenship's budget should come chiefly from 
public funds; its dependence on USCIS application fees should be 
reduced. The OoC should steer corporate and foundation funding to 
charitable agencies; it should not compete for sparse private funding. 
The OoC should hire community liaison officers for each USCIS district 
to coordinate local initiatives, to conduct outreach, to share 
successful program models, and otherwise to build partnerships with 
charitable agencies.
    Seventh, the Office of Citizenship should initiate a process to 
identify the research and demographic data that will be needed to 
conduct a national citizenship program. This data should be used to 
develop outreach strategies, to design media campaigns, to allocate 
funding, to build service capacity, to strengthen ESL and citizenship 
instruction, and to provide benchmarks and tools for evaluation. 
Similarly, immigration experts should convene a national citizenship 
conference to share new research, knowledge, program models, and best 
practices. It will be crucially important that any national citizenship 
program have a methodologically sound evaluation component. Program 
evaluation should document not only numbers of new citizens, but 
significant community interventions and steps contributing to 
citizenship. Protocols and controls should be developed to restrict 
government and grantee access to confidential information.
    Eighth, USCIS should explain naturalization eligibility 
requirements in its approval notice for lawful permanent residence. In 
addition, the USCIS should make the OoC's guide titled Welcome to the 
United States, A Guide for New Immigrants available to all immigrants 
and refugees. USCIS should notify immigrants when they become eligible 
to apply for citizenship. It should refer applicants that fail the 
citizenship test to ESL and citizenship courses. In addition, the 
Office of Citizenship should partner with charitable agencies and 
networks to provide outreach on citizenship to immigrant communities. 
Appropriate content should be developed by experts in media messaging 
and by immigration advocates. Outreach should highlight naturalization 
requirements, as well as the benefits, rights, and responsibilities of 
citizenship.
    Ninth, naturalization oath ceremonies should be the defining moment 
of the citizenship process and a key feature of a national citizenship 
program. USCIS should direct its district offices to offer same-day 
oath ceremonies if possible. The Office of Citizenship should expand 
its efforts to organize high-profile naturalization ceremonies, 
including those on days of national significance. Court- and USCIS-
administered ceremonies should be open to the public and to service 
organizations. All oath ceremonies should conclude with voter 
registration. Local boards of election should oversee voter 
registration activities and encourage civic organizations to provide 
this service.
    Tenth, ESL and citizenship instruction should be expanded through 
adult basic education classes and community-based organizations. 
Classes should be available at different English language levels, 
including short-term, high-impact instruction for advanced students and 
long-term, tailored instruction for students with low literacy. 
Standards should be established for both professional and volunteer 
instructors. Instructors should refer legal questions to immigration 
attorneys or accredited non-attorneys. ESL and citizenship curricula 
should cover the naturalization test and interview, but include broader 
content that fosters an informed and engaged citizenry.
    Eleventh, USCIS should expand the availability of citizenship 
application fee waivers for low-income immigrants. It should liberalize 
its fee waiver policy, create a fee waiver application form to 
standardize the application process, explain the availability of 
waivers and the application process in its informational materials, 
establish an application filing discount for poor working families who 
wish to apply for citizenship together, and offer an option of paying 
the application fee in two installments.
    Twelfth, USCIS should continue its efforts--which it began in 
earnest in 2002--to develop a more meaningful citizenship test. The 
revised test should adhere to the current legal requirements for level 
of difficulty and use of discretion, include consequential material on 
U.S. history and civics presented at a basic English level, and be able 
to accommodate applicants with special needs. It should not adversely 
impact vulnerable applicants or those who are members of specific 
ethnic, national or language groups.
    Thirteenth, USCIS should train and monitor its officers to ensure 
proper implementation of the redesigned citizenship test. In addition, 
the Office of Citizenship should partner with nonprofit organizations 
to create: (1) a curriculum and study guide at basic and advanced 
English levels for use in preparing applicants for the citizenship 
test; (2) a teacher's guide; and (3) multi-modal citizenship promotion 
materials. It should also establish a clearinghouse of citizenship 
materials, fund training and technical assistance for ESL and 
citizenship teachers, and promote standards in citizenship education.
                               conclusion
    These recommendations form the basis of the more detailed analysis 
provided in A More Perfect Union: A National Citizenship Plan. CLINIC's 
network is fully committed to the integration of our nation's 
immigrants and their families. A national citizenship plan would make 
an indispensable contribution to this goal. It would also serve our 
nation's interest. We thank you for your leadership on this issue and 
encourage you to move ahead on this important issue.
                               work cited
Jeffrey Chenoweth and Laura Burdick, A More Perfect Union: A National 
    Citizenship Plan (Catholic Legal Immigration Network, Inc., Jan. 
    2007), available at http://www.cliniclegal.org/DNP/citzplan.html.
Steve Farkas, Ann Duffett and Jean Johnson, Now That I'm Here: What 
    America's Immigrants Have to Say about Life in the U.S. Today 
    (Public Agenda, 2003), 29.
Jeffrey Passel, Growing Share of Immigrants Choosing Naturalization 
    (Pew Hispanic Center, Mar. 28, 2007), 7-8, available at http://
    pewhispanic.org/reports/report.php?ReportID=74).

    Ms. Lofgren. Thank you, Mr. Kerwin.
    And Dr. Fonte?

        TESTIMONY OF JOHN FONTE, Ph.D., SENIOR FELLOW, 
                        HUDSON INSTITUTE

    Mr. Fonte. Thank you, Chairwoman Lofgren and Ranking Member 
King.
    What do we mean by integration? Let's start by using a more 
vigorous term, assimilation. There are different types of 
assimilation: linguistic, economic, civic, patriotic.
    Linguistic assimilation means the immigrant learns English. 
Economic assimilation means the immigrant does well materially. 
Civic integration means the immigrant is integrated into our 
political system, votes and has some involvement in civic 
affairs.
    These forms of assimilation are necessary but not 
sufficient. We were reminded again with the Fort Dix conspiracy 
that there are naturalized citizens, permanent residents and 
illegal immigrants living in our country who speak English, are 
gainfully employed and would like to kill as many Americans as 
possible.
    The type of assimilation that matters most is patriotic 
assimilation, political loyalty, and emotional attachment to 
the United States.
    This was accomplished in the days of Ellis Island because 
America's leaders, including Democrat Woodrow Wilson and 
Republican Theodore Roosevelt, believed that immigrants should 
be Americanized.
    They were self-confident leaders. They didn't use weasel 
words like ``integration.'' They talked openly about 
Americanization.
    July 4, 1915, President Woodrow Wilson declared National 
Americanization Day. The President and his cabinet addressed 
naturalization ceremonies around the Nation.
    The most powerful speech was delivered by Supreme Court 
Justice Louis Brandeis in which Brandeis declared 
Americanization meant that the newcomer should possess the 
national consciousness of an American.
    In the 1990's, the late Congresswoman Barbara Jordan called 
for revival of Americanization and a new Americanization 
movement.
    Yesterday, I was at a conference where Henry Cisneros said 
the best term is ``Americanization.'' Unfortunately, for 
decades, we have implemented anti-Americanization policies--
multilingual ballots, bilingual education and Executive Order 
13166. This hurts assimilation.
    Traditionally, the greatest indicator of assimilation is 
intermarriage between immigrants and the native-born.
    A major new study published in the American Sociological 
Review found a big decline in interethnic marriage. The author 
declared, ``These declines are a significant departure from 
past trends and reflect the growth in the immigrant 
population,'' in which Latinos are marrying Latinos, Asians 
marrying Latinos--and the paths are reversed, so the 1970's and 
1980's and 1990's were reversed.
    The Pew Hispanic Survey found that 7 months after 9/11, 
only 34 percent of American citizens of Latino origin consider 
their primary identification as American first. On the other 
hand, 42 percent identified with their parents' country, 
Mexico, El Salvador, so on--24 percent, ethnic identity first.
    Professor Rumbaut's excellent work on the children of 
immigrants showed that after 4 years of American high school, 
self-identification with America and as hyphenated Americans 
went down. Identification with parents and birth country went 
up.
    An article in the Chicago Tribune Friday, April 6 about the 
person in charge of the New Americans Office is, I think, very 
revealing.
    The State official declared, ``The nation-state concept is 
changing, where you don't have to say I am Mexican or I am 
American. You can be a good Mexican citizen and a good American 
citizen, and it is not a conflict of interest. Sovereignty is 
flexible.''
    Well, a very different view was given by the President of 
the United States 100 years ago in 1907. President Theodore 
Roosevelt said, ``If the immigrant comes here in good faith, 
assimilates himself to us, he shall be treated on exact 
equality with everyone else. But this is predicated upon that 
person becoming an American and nothing but an American. There 
can be no divided allegiance here. We have room for but one 
loyalty, and that is loyalty to the American people.''
    So we are presented with two very different views of the 
oath of allegiance and what this means in the Chicago Tribune 
article of 2007 and Theodore Roosevelt in 1907. We will have to 
choose. What should we do today?
    Well, it makes no sense to enact comprehensive immigration 
reform which means a slow-motion amnesty, a massive increase in 
low-skilled immigration, further exacerbating our assimilation 
problem.
    What we need first is comprehensive assimilation reform for 
those immigrants who are here legally.
    One, first we should dismantle the anti-assimilation regime 
of foreign language ballots, voting in foreign countries by 
dual nationals, bilingual education and Executive Order 13166.
    Second, we should follow Barbara Jordan and Henry 
Cisneros's lead and call for Americanization, not integration.
    Third, we should enforce the oath of allegiance.
    I have six or seven points. They are in the written 
statement. I can take questions on that.
    We need comprehensive assimilation reform first. 
Comprehensive immigration reform is not comprehensive. That is 
the problem. It is basically not comprehensive. It doesn't deal 
with assimilation.
    Comprehensive immigration reform is primarily about the 
special interest needs of particular businesses, not the 
interests of the American people as a whole. It ignores 
assimilation and puts the market over the Nation.
    But Americans must remember, we are a Nation of citizens 
before we are a market of consumers. Thank you.
    [The prepared statement of Mr. Fonte follows:]
                    Prepared Statement of John Fonte


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



--------
    *Mr. Fonte's statement records the date of the ``Chicago Tribune 
article'' as appearing on April 7. The correct date that the article 
appeared is April 6.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Ms. Lofgren. Thank you, Dr. Fonte.
    We will now begin questioning by Members of the Committee, 
and I will start off. We have just 5 minutes apiece.
    I would like to ask Dr. Rumbaut" Dr. Fonte just mentioned 
you and a study that you did about the affiliation of teenagers 
and their loyalty to the United States. Have you done any 
additional longitudinal studies on that subject?
    Mr. Rumbaut. Yes. Dr. Fonte was referring to data from the 
second wave of interviews from our CILS study, which were 
published in a book called Legacies that he was referring to.
    We have continued to follow that sample of thousands of 
young people into their mid-20's, and we have continued to ask 
questions about language, about identity, about some of the 
issues that he has been talking about.
    I would make a couple of comments in response to that. 
First, when you ask young people when they are 17 years old and 
18 years ago what their identity is, and they are in high 
school and so on, their sense of self, their self definitions, 
their identities and so on reflect the context of an adolescent 
culture in high school, their peers and so on.
    In the United States, that is heavily weighted to racial 
notions of racial identities which are made in the USA.
    A lot of kids are using the national origin of their 
parents as a response to what their racial identity is, and 
they are not talking really about national identity or 
patriotic identities, but how they fit in the particular 
subculture of the high school where they happen to be at.
    Ms. Lofgren. Does that change after graduation?
    Mr. Rumbaut. It changes. By their mid-20's, we saw a 
complete reversal back to patterns that had been seen at the 
time one baseline survey, so that dissipates.
    Second, some of the most striking responses to a national 
identity that we observed in 1995, which is what Dr. Fonte was 
referring to, was among Mexicans in Southern California.
    We went into the field immediately after the passage of 
Prop 187 in California and it was in reaction to that, what we 
call reactive ethnicity, that an assertion of a national 
identity as Mexican was made even by U.S.-born Mexican-
Americans because of perceived discrimination and prejudice 
against their nationality as a whole.
    That again dissipates. When we asked the same question to 
Mexicans in Florida at the same time that Prop 187 was passed 
in California, we saw an assimilative pattern among Mexicans in 
Florida, but we didn't see that among those that were 
responding to conditions of discrimination and prejudice.
    So a lot of what this debate about identities entails is a 
response to what the larger context in which they are 
assimilating--it is composed of.
    Assimilation has never been about simply individual 
acculturation on the part of an immigrant. It has always 
entailed an absence of prejudice and discrimination on the part 
of the whole society. It takes two to assimilate. It takes two 
to tango.
    It was Robert Park 100 years ago, one of the leading 
sociologists of assimilation in the country at the University 
of Chicago at the time, who said that the most acculturated 
American at the time was the American Negro.
    He said the American Negro is an English-only-speaking 
Protestant. And yet, he was the least assimilated in this 
society----
    Ms. Lofgren. Because of discrimination.
    Mr. Rumbaut [continuing]. Not because of a lack of 
acculturation but because of the caste restrictions that were 
imposed on him by the host country.
    Ms. Lofgren. I found your study on language absolutely 
fascinating, because it matches so much what I find at home, 
where my colleagues who are second generation are pulling their 
hair out because their kids are monolingual English and cannot 
speak to their grandparents.
    And you really identified the death of foreign languages in 
the United States, which I think adds some other issues that--
it would be nice if we had more people who could speak another 
language.
    But do you see any chance that English will stop being the 
common language of the United States from your studies?
    Mr. Rumbaut. Absolutely not. In fact, you talk about what 
you see at home. My wife, who is of Mexican origin, and I have 
been trying to raise a bilingual child. If there is anyone 
committed to bilingualism in the United States and sees the 
benefits of it, it is me.
    It was my wife and me against Michigan. And now we moved to 
Southern California and we thought he would be in a context 
where he is bilingual. We talk to him in Spanish, and he 
answers only in English.
    Ms. Lofgren. Right. My time is almost up.
    I would like to ask Dr. Gerstle, is there a preset number 
where America should say, ``We can't accept any more immigrants 
because they would not become American because there are too 
many of them,'' in your judgment?
    Mr. Gerstle. I don't think there is a preset number. I made 
the point in my statement today and in the longer statement 
that immigration density was far greater 100 years ago than it 
is today.
    Ms. Lofgren. My time has expired, and I am going to try and 
be good about that.
    Mr. King?
    Mr. King. Thank you, Madam Chair.
    First, I would note that although when the process kicked 
off some time yesterday afternoon, by the time the testimony 
reached me, the chickens had gone to roost, so I didn't have an 
opportunity to read thoroughly through all the testimony. I 
have scanned most of it.
    Dr. Rumbaut, I understand that you have a lot of material 
here, and I appreciate that input, and hopefully I can review 
it after this hearing.
    I would like to turn first to Dr. Gerstle and your 
statement about the numbers of immigrants and the percentage 
and the concentration.
    If I recall, and I do, the U.S. census reports, the first 
ones we got on immigration were in 1820, and you go to that 
year yourself when you tabulate those numbers.
    And I have done back to those PDF files and reviewed--and 
they are a little hard to see, but they are on the computer and 
you can find them on the Internet--and totaled those numbers 
from 1820 until the year 2000, which would be our last census.
    And there, according to the U.S. Census Bureau, we have 
66.1 million immigrants in that number. That doesn't match up 
with the numbers in your testimony. Can you explain that 
discrepancy?
    Mr. Gerstle. Well, calculating the total number of 
immigrants who have come to this country turns out to be rather 
difficult because one has to account not only for those who 
came and stayed but for the very significant numbers who came 
and went home, so I think----
    Mr. King. Where do your numbers come from, though, please?
    Mr. Gerstle. They come from the census materials.
    Mr. King. Then why don't we match?
    Mr. Gerstle. Well, because there are instances in the past 
where those who have come have sometimes gone home, and 
sometimes those who came have also gone unrecorded and have 
been undocumented.
    Mr. King. But do you use some other information to add to 
that number? Because when I look at those numbers, they are 
finite numbers, so I don't see any latitude there to expand 
that number or subtract from it.
    Mr. Gerstle. I can get those--I don't have that data with 
me today, but----
    Mr. King. I would appreciate it if you would----
    Mr. Gerstle [continuing]. I can get those for you.
    Mr. King [continuing]. For the benefit of this Committee. 
And then I look at today, we are 11 percent immigrants, and 
that includes 35 million, 12 million of which are counted as 
illegal. And a lot of us believe that number is greater. That 
takes us up to 11 percent.
    And if you go to the high water mark, the immigrant number 
concentration in the population is 14 percent roughly a century 
ago.
    So I am having trouble understanding the statement that we 
would have to multiply our current immigration number by a 
factor of four to meet the concentration level at the high 
water mark.
    Mr. Gerstle. Well, I was referring to those who are coming 
in annually at the height of that immigration period, where the 
numbers approached or exceeded a million a year.
    And a few years ago, the numbers coming into the United 
States were calculated to have reached that level. And that was 
advertised at the time as being the all-time high.
    My point there is those million a year coming into the 
United States now are coming into a society of approximately 
300 million people.
    Mr. King. That would be the legal ones.
    Mr. Gerstle. Yes, whereas those coming in----
    Mr. King. Excuse me, Dr. Gerstle. I do have to measure my 
time a little bit. But I appreciate your testimony and your 
answers.
    And I would like to turn, if I could, to Mr. Kerwin, and in 
your testimony, your statement here that there is a real 
concentrated interest in naturalization--and if I look at the 
naturalization numbers--I go back to 1970 of those--and 
according to the USCIS, they show that immigrants who were 
admitted prior to 1970 naturalized at a rate of 82 percent.
    Those from 1970 to 1979 naturalized at a rate of 66 
percent, and from 1980 to 1989, 45 percent. You see the trend. 
From 1900 to the year 2000, it fell to 13 percent.
    So how can U.S. Citizenship and Immigration Services have a 
number that shows a dramatic decline over a period of 30 years 
from 82 percent to 13 percent--how can that comport with your 
statement that there is an interest in naturalization?
    Mr. Kerwin. Well, as I understand it, the most recent study 
by Pew Hispanic Center shows that there has actually been an 
increase in naturalization among lawful immigrants, legal 
permanent residents. It is not----
    Mr. King. Would you allow there is a lot of room for 
improvement?
    Mr. Kerwin. Oh, absolutely. And that is the point of our 
study. And what we would like to do is we would like to take 
the entities that were involved and key in integrating 
immigrants in the past and get them together--the Federal 
Government, churches, charitable agencies, civic associations--
--
    Mr. King. Let me say, if I might, Mr. Kerwin, you make a 
lot of good points in your testimony.
    Mr. Kerwin. Thank you.
    Mr. King. And I could take issue with some parts of it, but 
there are a lot of good points that I think we all need to 
review.
    And I would like to quickly, if I could, turn to Dr. Fonte, 
and you referenced intermarriage, and I would ask this 
question.
    The reduction in the amount of intermarriages that we have, 
interracial intermarriage--could that be--and what are your 
thoughts on it--being the result of the effects of 
multiculturalism that might tend to isolate young Americans in 
those ethnic enclaves rather than being further assimilated 
into the broader society where they would have contact with 
people of different areas of the society?
    Mr. Fonte. Yes, I think that is part of it, and the 
research from a Ohio State University professor said the main 
point was we are bringing in large numbers of unskilled 
immigrants with low education, and people usually marry within 
their group in this particular category, so Latinos are 
marrying Latinos, and Asians are marrying Asians.
    So this is a complete reversal in the 1990's from what we 
saw in the 1970's and 1980's. So it has something to do with 
numbers, and as you suggest, large numbers of unskilled folks 
are marrying each other.
    Mr. King. Thank you, Dr. Fonte.
    I would yield back. Thank you, Madam Chair.
    Ms. Lofgren. Thank you.
    The Chairman of the full Committee, Mr. Conyers, is 
recognized.
    Mr. Conyers. Thank you, Madam Chair.
    This is a great discussion we are having. And if we could 
only find a way to get around the 5-minute rule, because there 
is so much. I have been looking very carefully, Dr. Fonte, to 
find something that you and I agree upon. We have got to have a 
starting point here.
    And I may have it when you say that multiethnicity and 
ethnic subcultures have enriched America and have been part of 
our past since Colonial days.
    Now, that is a good starting point, isn't it?
    Mr. Fonte. We agree.
    Mr. Conyers. But the executive orders--intermarriage--it 
was against the law until 1967 when a Supreme Court case made 
it legal for couples to decide to cross the line. The Clinton 
executive order didn't bother me that much.
    But let's get to what seems to be the heart of the matter 
in a couple minutes. English-language-only laws--that is what 
seems to be bugging a lot of people in the Congress and 
outside, too.
    Now, would English-language-only laws help promote 
immigrants into Americanization? There, I used your term.
    Mr. Fonte. And Barbara Jordan's term.
    Mr. Conyers. Who wants to try that?
    Dr. Rumbaut?
    Mr. Rumbaut. I would argue that exactly the opposite would 
happen. Much as you saw with the instance of identity 
expressions and so on, the moment you try to coerce and to 
impose a rule on someone and tell them what you can and you 
cannot speak, you are going to engender a reaction to that.
    The best way to Americanize, in Barbara Jordan's sense, is 
to treat the process of assimilation or Americanization as a 
seduction.
    People will become American because they desire to. They 
don't become American or speak English because they are told 
to, or because they are required to.
    All that would do is end up driving a wedge in immigrant 
families, between parents and children, and it would end up 
creating far more unintended but serious problems than you are 
trying to achieve.
    Besides, there is no need for it when you look at the 
evidence that you have in front of you. There is no need to 
require people to speak a language when they are all moving 
toward it at historic speeds.
    Mr. Conyers. Dr. Gerstle, answer that, and talk with me 
about the impression I have had since the mid-1960's that 
innumerable swearing-in ceremonies of people becoming 
naturalized citizens--where the pride and the patriotism, the 
loyalty, the excitement, the dedication is so overpowering--I 
mean, you take that away, and then they have--in Detroit, you 
have--right outside the swearing-in ceremony, you can register 
to vote, right on the spot, as soon as you are given the oath.
    Talk to me about that and the previous question with the 
time I have left.
    Mr. Gerstle. I second what Dr. Rumbaut said. We are 
struggling with this issue in Nashville, Tennessee, now, where 
an English-only ordinance was put forward by the city council, 
attracted hundreds of people to meetings. It was ultimately 
passed by the council and then vetoed by the mayor--splits 
among Democrats and Republicans in that place.
    And I think the feeling was, and it is a feeling that I 
agree with, that it would be more of a barrier to integration 
and involving people in America than it would be a benefit.
    Historically, there were efforts in the 1920's to have 
English-only laws. There were efforts to banish private schools 
where any language was taught other than English.
    There was an effort to impose on public schools complete 
teaching of English every period of the day. The teaching of 
foreign languages was curtailed.
    Several of these were thrown out by the courts. It did have 
this effect. It did mobilize the immigrant community and made 
them realize the importance of participating in politics, 
naturalizing, engaging American democracy, learning it, 
participating in it. And that, I believe, is their most 
important school.
    Ms. Lofgren. The gentleman's time has expired.
    The gentleman from Virginia, Mr. Goodlatte?
    Mr. Goodlatte. Thank you, Madam Chairman. I appreciate your 
holding this hearing. It is, I agree with the Chairman, very 
interesting.
    Dr. Gerstle, I was very interested in your testimony 
regarding the capacity of our country to assimilate. And I am 
not sure that I disagree with you, but I am very concerned that 
it is not happening.
    The evidence cited by the gentleman from Iowa regarding the 
dramatic downward trends of permanent residents applying for 
citizenship from 80 percent in the 1960's down to 13 percent in 
the last decade is very disturbing.
    What do you attribute that to? Why are we failing to 
assimilate?
    Mr. Gerstle. The first thing I would say is that this 
country went through a really tough period in the 1960's and 
1970's, where all kinds of people became very anti-American, 
native-born and foreign-born alike.
    And this had to do with frustration over civil rights, a 
frustration over the Vietnam War. The origins of 
multiculturalism are as an anti-American creed--one's 
ethnicity, one's ethnic identity, is preferable to one's 
American identity.
    So I think the decline in loyalty and belief in America 
happened across the board, and it happened among immigrants and 
the native-born.
    Mr. Goodlatte. During that decade, 82 percent of permanent 
residents who became eligible for citizenship during that 
decade applied for citizenship. In the 1980's, when you didn't 
have that, it was dramatically down.
    In the 1990's, the so-called Clinton era, it was 
plummeting. And I don't know what it has been for the last 
decade, but those figures would seem to rebut, not support, 
your contention that----
    Mr. Gerstle. Well, I would be very interested to see--I 
don't have them handy--what the figures are for the last couple 
years, and to see if they have ticked upward in that regard.
    A couple things are important. First, I think length of 
residence of time is very important in terms of naturalization. 
If we look at the historical period, we find very low rates of 
naturalization among European groups for very long periods of 
time.
    In fact, if you look at the census and naturalization 
figures in 1920, you would find only a quarter of many of these 
Eastern and Southern European populations having naturalized, 
and many of those people had been there 20 years or 25 years. 
The 1920's and 1930's are the big decades of naturalization.
    Mr. Goodlatte. All right. We will take a look at that.
    Let me ask you about another subject, dual citizenship. As 
you may know, the Supreme Court ruled a number of years ago 
that you couldn't deprive an individual of their citizenship in 
another country. They could maintain that even upon swearing 
allegiance to the United States.
    Do you think that is a good thing or a bad thing? Does that 
help assimilation? Is it good that somebody is voting for 
elected officials in another country elsewhere in the world as 
well as participating in the United States?
    Mr. Gerstle. I think it is a worldwide phenomenon that most 
countries are moving toward this and reflects, I think, the 
degree to which people move around the world and are 
comfortable with that. I think it would be difficult to resist 
that.
    I would say that the most----
    Mr. Goodlatte. Is it dual citizenship or is it no 
citizenship if effectively people are choosing in such low 
numbers to affiliate themselves with the United States?
    Mr. Gerstle. I don't think it is no citizenship. I think 
citizenship and integration--and I am very comfortable using 
the word Americanization. Assimilation is a more problematic 
term that maybe we can talk about later.
    But these happen through institutions and through the 
engagement of immigrants in the practice of American politics.
    If we find ways to do that, to bring them into American 
politics, give them a sense of a stake in the political system 
through their representatives, mobilize them in this way, that 
will lead to a deepening attachment to America and appreciation 
for this country's heritage of freedom.
    Mr. Goodlatte. I hope you are right.
    Let me ask Dr. Fonte, would an official English language be 
helpful in promoting that assimilation?
    Mr. Fonte. I think that that would be fine as a statement 
of E Pluribus Unum. I think there is no reason we shouldn't all 
be voting in English. That gives the signal that we are all in 
this together.
    It hurts the immigrant and the ethnic group if the 
immigrant is only following the election--you could do this--
following the foreign-language venue, but you wouldn't have a 
full range of the debates. You wouldn't have all the arguments 
out there. So it hurts the immigrant more than anyone else, I 
would think.
    Mr. Goodlatte. What about the issue of dual citizenship?
    Mr. Fonte. I think dual allegiance is a problem. If someone 
is voting and holding office, running for office in a foreign 
country--Felix Frankfurter, one of our great Supreme Court 
justices, says this shows allegiance to a foreign power 
incompatible with allegiance to the United States.
    Mr. Goodlatte. Could we retest that in the Supreme Court?
    Mr. Fonte. What we could do is pass legislation. Earl 
Warren, who favored this decision, said you couldn't lose your 
citizenship, but he said there could be laws against voting in 
a foreign country, serving in a foreign government.
    So it could be made simply against the law by legislation, 
and not--someone wouldn't lose their citizenship, but they are 
unlikely to do it if it is against the law.
    So measures could be taken. I think they should be taken, 
because this is going to be a major problem for us and in the 
past. We had a person elected to the Mexican Congress last--in 
2004 who is an American citizen, and his loyalty now is 
obviously to the Mexican Congress.
    Ms. Lofgren. Dr. Fonte, if you could wrap up.
    Mr. Goodlatte. Thank you, Madam Chairman.
    Ms. Lofgren. Thank you. The gentleman's time is expired.
    The gentleman, Mr. Luis Gutierrez of Illinois?
    Mr. Gutierrez. Thank you very much.
    I want to thank all of the panel. I hope that the Ranking 
Member does find time to read Dr. Rumbaut's documentation that 
he sent before the Committee.
    I think it is very important that the one time that we do 
have somebody from the Latino community come before this 
Committee that we at least read the testimony that he or she 
has submitted, given that most of the ire and focus has been on 
the Latino community and Latino immigrants, as though they were 
the only immigrants to the United States of America, when, 
indeed, we know that 40 percent of the undocumented never 
crossed that border.
    They came here through a legal fashion--and that there are, 
indeed, millions of undocumented immigrants.
    We watched LegalizeTheIrish.org come here before the 
Congress, and the Polish community, and the Ukranian community, 
the Filipino community, from so many different other nations, 
enriching this great Nation. So I hope that we would take time.
    I would like to also say to Dr. Rumbaut, thank you so much 
for coming and giving the personal testimony, and I just want 
to share with you, the only reason my daughters speak Spanish 
is because we enrolled them in Spanish immersion classes from 
kindergarten to eighth grade.
    And I thank the public school system of Chicago for having 
those classes, because if it were up to me and my wife, who are 
bilingual but only speak English at home and rarely watch 
Univision or Telemundo--unless, of course, we want news that is 
relevant to our community in the evening, and we want to find 
out what really happened in our neighborhood and in our life--
well, we put them on. But this is the experience.
    I would hope that Members of the Committee would just take 
some time to visit immigrant communities and walk among the 
immigrant community, and they would find that if you want to 
pass English-only, that is fine.
    It is a waste of time, a waste of money, to enforce it, 
because obviously--my parents didn't come here as immigrants. 
They came here as migrants from Puerto Rico, but they were 
monolingual. They only spoke Spanish.
    And as we look at assimilation, I think we also have to 
look at segregation, the kind of society that we live in.
    The fact is I became more assimilated as I grew older, 
because economic and social possibilities were afforded to me 
that were not afforded to me as a youth.
    I grew up in a Puerto Rican neighborhood. Most everyone I 
knew was Puerto Rican--my parents, my family, the church I went 
to on Sunday, where my parents worked almost every--I mean, 
that is part of American society.
    It is an unfortunate part of American society that 
segregation exists, but if we are going to deal with this 
``assimilation,'' I think we should also look at the underlying 
bias and prejudice that sometimes raises its ugly head, 
unfortunately, in our great American society that stops people 
from becoming assimilated into American society.
    As you become older--well, my kids are now going to 
college. And my grandson--we are going to have a real big 
problem with the grandson. Unfortunately, it is going to be a 
tough battle.
    Mr. Rumbaut. As they say in Brooklyn, ``Fuggetaboutit.''
    Mr. Gutierrez. ``Fuggetaboutit.'' We are going to have a 
tough problem. And I shared this with my colleagues on the 
other side to say fear not, my parents only spoke Spanish.
    I obviously have some English proficiency that has allowed 
me to come here to the Congress of the United States. It may 
not be as great as Members on the other side of the aisle, but 
I try each and every day.
    And my daughters--I assure you, we have spent an inordinate 
amount of money. I do it because I want to maintain that rich 
cultural history and linguistic history. But I also do it 
because I want to make sure the job opportunities and economic 
opportunities are available to them as things are posted in the 
newspaper, bilingual preferred, by a large American national 
corporation, so that American citizens can produce goods and 
distribute those goods throughout the world, and we can become 
a more prosperous Nation.
    People do buy goods because they are advertised in another 
language. And as Dr. Rumbaut knows, Univision isn't entirely 
owned by Latinos, much less Telemundo, which is owned by G.E. 
and NBC. I mean, so these corporations are not just Latino 
corporations.
    I would like to say to all of the witnesses thank you so 
much, and I would hope that we would simply read the 
literature, because instead of English-only, I wish we could 
all get together, because I could join my colleagues on the 
other side of the aisle.
    Let's fund English classes. Let's fund them and let's open 
up centers, and you will find that they will be filled to 
capacity. People want to learn English in this country.
    They aren't given the ability to learn English, number one. 
Well, part of the reason is the segregation, and the other is 
access to educational opportunities.
    I thank the witnesses.
    And I want to thank the gentlelady from California, our 
Chairwoman, for putting this wonderful panel together.
    Ms. Lofgren. Thank you. The gentleman's time has expired.
    Mr. Gohmert?
    Mr. Gohmert. Thank you, Madam Chairwoman.
    And I do appreciate my colleague's comments about English 
classes. You probably have a very good idea there.
    One of my closest friends in Tyler, Texas, said, you know, 
his parents, both of them, came from Mexico, and speaking 
English was a struggle, but they opened two restaurants that 
are two of our best in Tyler. And they made clear that their 
children were to learn English, that if they were going to 
reach their potential in this country they needed to speak good 
English. And they speak probably better than I.
    But it does seem that some well-meaning people encourage 
and want to allow people to continue to speak Spanish, which to 
me is almost a form of discrimination, because that would 
prevent individuals from reaching their potential.
    And my friend, Mr. Ramirez, at home has been a city 
councilman and a county commissioner, and that wouldn't have 
happened had he not spoken such excellent English and been able 
to communicate ideas so effectively.
    But I go back to some of those things that were said here, 
and I admire greatly, Dr. Rumbaut, your testimonial. My great-
grandfather came over in the late 1700's, didn't speak English, 
but he did two things. He learned to speak English and he 
worked his tail off.
    And within 25 years, he built one of the nicest homes in 
Cuero, Texas. It is still there with a historic marker on it.
    I am curious, just as a hypothetical, if something tragic 
happened and all of us in this room were wiped out--although 
there are those that might say if I were wiped out it wouldn't 
be all that tragic, but for the rest it might be--this is being 
recorded.
    Dr. Rumbaut, where would you want your loved ones to have 
your remains placed, whether cremation or burial? Where would 
you want them to place you? You have moved around. You have 
seen the best of all kinds of places. What do you think?
    Mr. Rumbaut. I can tell you that my brother is here. I have 
a sister in Texas that has an urn containing the ashes of my 
father.
    And we are waiting for the politically appropriate moment 
in which, at his request, to take his ashes to Cienfuegos, 
which is a city in Cuba where he was born and where he first 
saw the sea, and so on. On the other hand, his name was Ruben 
Dario Rumbaut.
    My son is named Ruben Dario Rumbaut after my father. He was 
born in Michigan. He is a Detroit Pistons fan, a Detroit Red 
Wings fan. He is a Detroit Tigers fan. We are in Anaheim now, 
but he doesn't follow the Angels. He doesn't follow the Ducks. 
He is, ``The Red Wings, go, Red Wings,'' and so on.
    He knows that his grandfather came from Cuba and so on, but 
he would have no attachment to that whatsoever. He would not 
want to be buried there. If anything, he would want to go back 
to Detroit.
    We all form our own attachments in the context of our 
lives. There is no plot out there that says that immigrants 
want to go back and that they are fifth columns----
    Mr. Gohmert. Okay, but I take it from your answer you 
hadn't made that decision yet yourself.
    And I appreciate the discussion of other individuals.
    Mr. Rumbaut. Unimportant.
    Mr. Gohmert. Where you would want----
    Mr. Rumbaut. It is unimportant, what happens to me. What is 
important is what I do with my life. It is as I told Mr. 
Conyers, ``Aspire to inspire before you expire''----
    Mr. Gohmert. Okay. So that is what you want your loved ones 
to know.
    If you go back to my question, it was--but you say it 
doesn't matter.
    Mr. Rumbaut. It will be in the United States.
    Mr. Gohmert. Okay. Well, there we go. We got to the answer 
eventually. Thank you.
    But you know, I appreciate--Dr. Gerstle, you had indicated 
about immigration in the last century or so--how many of the 
individuals back 100 years ago--I know my great-grandfather 
would be in this group.
    He put his stake down in Texas, and despite nearly all of 
his family being in Europe, he had no intention of going back 
there. Do you know how many in those days asked to be buried or 
had their remains sent back to their country of origin?
    Mr. Gerstle. No, I don't think we have that kind of data. 
In fact, it is tremendously hard simply to find out who went 
back and how many.
    We have historians looking at ship registers to find out 
when they came, and then other ship registers in the subsequent 
5 years, 10 years, 15 years to find out when they went back. So 
it is incredibly hard to do that.
    Not every group who came here looked to go back. It is just 
among the majority of Eastern and Southern Europeans who came 
for the first 10 years or 15 years, probably a majority were 
thinking of going back. Some went back and some didn't make it.
    Mr. Gohmert. In conclusion, if I could--as a history major 
and a fan of history, I can't help but wonder--as nations 
throughout world history rose and fell, often they were 
becoming more fractured from more widespread de-assimilation. 
And I can't help but wonder if there weren't experts back in 
those days saying, ``It is not happening, and if it is, it is a 
good thing,'' so----
    Ms. Lofgren. The gentleman's time has expired.
    The gentlelady from Texas?
    Ms. Jackson Lee. I thank the Chairwoman, and I certainly 
thank the indulgence of the Ranking Member.
    I thank the witnesses for their very thoughtful testimony. 
The lack of questions to any of you does not reflect the 
importance of your testimony.
    But this is a very emotional roller coaster that we are on. 
It is a chicken and egg, Dr. Rumbaut, frankly. If we don't have 
comprehensive immigration reform, we never get to where our 
colleagues are wanting us to go.
    Many of us have legislative initiatives that really speak 
to some of their concerns, if we could get out of the start 
gate.
    Our language in the Save America Comprehensive Immigration 
bill that I have, the STRIVE Act--all talk about--in the earned 
access to legalization talks about an English requirement, 
talks about--in particular, my bill talks about community 
service. And in fact, it has the word Americanization, words 
that we are not really running away from, and words that you 
are speaking to.
    So, first of all, I would like you to just say yes or no. 
These are elements that populations would not run away from if 
we had comprehensive immigration reform--that people are not 
running away from learning English. They are not running away 
from--if you wanted to do community service, our Chairman of 
the full Committee already said the first person that lost 
their life in Iraq was an undocumented person.
    When I traveled to Iraq and Afghanistan, and I see the 
array--the potpourri of faces that represent the United States 
that are American, I have never seen any diminishing of 
patriotism among those young Hispanic soldiers, young Asian 
soldiers, young African-American soldiers.
    So I guess just a yes or no, do you think the immigrant 
community, if a comprehensive immigration reform bill--would 
run away from the concept of English, Americanization, 
community service?
    Mr. Rumbaut. Absolutely not.
    Ms. Jackson Lee. And let me probe you a little bit more, 
because this is an important question. And I wish the honorable 
Barbara Jordan that preceded me some few years back was here to 
speak for herself, because one thing that I knew her as in life 
was a person who grew, who looked at the landscape and would 
not stand for denying due process or fairness to anyone.
    So she is not here to speak for herself, and the word 
``Americanization'' and all of her language--I guess they don't 
remember the words in this Committee that said, ``We, the 
people,'' will not be denied constitutional rights.
    But moving forward, I raised teenagers. I raised them in an 
integrated high school, so call it, in Houston, Texas. There 
was the Latino-Hispanic table, the African-American table, the 
Caucasian table, the Asian table. And if anybody saw the movie 
Freedom Writers, that really captures what our young people are 
going through. And they achieve this identity.
    If you remember the Black Power movement, if you remember 
the movement where I was in in college, all of us were going 
back to Africa, and we were citizens, but we were all going 
back. We were going to the motherland.
    There is this emotional draw to your ethnicity. But I tell 
you, as somewhat of an adult over 21, the tragedy of 9/11--I 
didn't see one dry eye, no matter what color you were.
    I don't know why we are struggling and caught in the 
quagmire of people's identity, when identities give pride, are 
valuable for America. So could you just respond to this--I 
think you did talk about it--teenagers' identity?
    It is completely different from rejecting becoming 
Americanized, completely different.
    And if there are other panelists--Mr. Kerwin, you want to 
speak, too, and Dr. Fonte--completely different from this 
concept of never learning English and never becoming American.
    I will start with you, Dr. Rumbaut.
    Mr. Rumbaut. I would say very briefly----
    Ms. Jackson Lee. Do you remember the Black Power movement 
and all of us--many of us of my culture going to the 
motherland?
    Mr. Rumbaut. I was marching----
    Ms. Jackson Lee. We still do want to go.
    Mr. Rumbaut. I understand completely. I remember Barbara 
Jordan very, very well. You resemble her in many ways. And I 
would say simply, very briefly, that part of the problem is 
framing all these issues in either/or terms.
    There is no contradiction in being proud of one's heritage 
and being proud of one's roots, in wanting to go back to Africa 
at the time that you were--the golden days--and at the same 
time being an American citizen concerned with the best 
interests of this country and wanting to give it all, 
including, as you mentioned and as Chairman Conyers mentioned, 
even one's very life.
    There is simply no contradiction between the two, and we 
need to frame it in larger terms. So let me just stop there. I 
mean, I could say many other things, but there are other 
members of the panel who want to respond.
    Ms. Jackson Lee. Go ahead, Dr. Kerwin, please.
    Mr. Kerwin. Just to repeat, I think that it is absolutely 
true that the foreign-born want to learn English. The average 
wait for ESL classes by professionally credentialed people is 
now 6 months.
    Ms. Jackson Lee. It is a crisis.
    Mr. Kerwin. It is a crisis, yes. And I don't think people 
dispute the need for patriotic assimilation. You know, there 
may be some out there that do, but I think in general it is 
understood that that is necessary.
    It is also true what you say, that legal status is crucial 
to integration. There is no doubt about that.
    Ms. Lofgren. The gentlelady's time has expired.
    Ms. Jackson Lee. I thank you.
    Sorry, Dr. Fonte.
    Mr. Fonte. Was I supposed to speak, or----
    Ms. Lofgren. Well, the gentlelady's time is expired.
    Mr. Fonte. Okay.
    Ms. Lofgren. But without objection, we will extend her time 
for 1 minute so Dr. Fonte can respond.
    Mr. Fonte. Okay. As I said to Chairman Conyers, we agree 
that ethnic subcultures have always been an important part of 
American life.
    But the key factor in immigration is when the new citizen 
takes the oath of allegiance--I absolutely and entirely 
renounce all allegiance to my foreign state or country, and so 
on.
    In other words, it is a political transfer of allegiance. 
Someone is transferring political allegiance from the birth 
nation to the United States. So that is either/or. You are 
either loyal to the United States, as Theodore Roosevelt said, 
and no other country.
    That is different from pride in ethnicity, which we all 
have.
    Ms. Jackson Lee. Reclaiming my time, just 1 minute, I have 
never seen the two mixed together, apples and oranges, taking 
the oath and a denial of your culture being--let me just say 
this--taking the oath and having to reject your culture and 
having your culture being non-patriotic.
    I don't think that makes sense at all. They take the oath 
and they still believe in singing the songs and understanding 
their culture. Believe me, they are still Americans. That is 
what America is----
    Ms. Lofgren. The gentlelady's time has expired.
    The gentlelady from California?
    Ms. Sanchez. Thank you, Madam Chair.
    I do have questions, but I have a few comments first, 
because I have been listening very intently to the conversation 
and to your testimony.
    I want to tell you a story. It is about two immigrants that 
came from Mexico, probably would have been considered without 
skill, one who worked himself from a factory shop floor to 
being a successful small business owner, the other who raised 
seven children who all went to college and then, in her mid 
40's, went back to school to get her GED, her A.A. and her 
B.A., her teaching credential, and still teaches today in the 
public school system.
    Of the seven children that they raised, all of them went to 
college, two of them are now serving in Congress, and we are 
the first women of any relation to serve in Congress. I am 
talking about my family and my parents here.
    So you can call it integration, or assimilation, or 
Americanization, or any other thing you want to call it, but it 
is an American success story that begins with immigrants.
    Dr. Fonte, I take great issue with your assertion that 
English-only laws with respect to elections are necessary. My 
mother, who came to this country and became a teacher--she is a 
public school teacher.
    She teaches other people's children English, sometimes 
finds it easier to understand the nuances of complex ballot 
initiatives if they are provided in the first language that she 
ever learned, Spanish.
    This does not mean she is not fluent in English, because 
she is, she teaches it. But she is a more informed voter 
sometimes when she receives those materials in her native 
language.
    So I don't think that takes anything away from her loyalty 
to this country, her love of this country, her desire to 
continue teaching English in this country.
    And I really, really take issue with the idea that if we 
make English-only laws for voting that that is somehow going to 
create a more informed citizen or a more desirous citizen for 
voting, because my mother already has that desire.
    Dr. Rumbaut, you mentioned telenovelas. I am a big fan of 
telenovelas. But even our telenovelas have been linguistically 
assimilated, because I used to watch ``Betty La Fea'' in 
Spanish, and we now have the English counterpart, ``Ugly 
Betty,'' which is a huge, successful show. In fact, America 
Ferrera, who stars in that telenovela, the U.S. version, won a 
Golden Globe for her performance.
    But I do want to get down to some of the questions.
    Professor Rumbaut, I know that you have been studying 
immigrant integration and linguistic assimilation for 
approximately 30 years. Based on your research, do you believe 
that there is a danger that English is going to stop being the 
common language of the United States? Is there a real threat of 
that?
    Mr. Rumbaut. No. Well, as I mentioned, no. If anything, 
English is the official language of the Milky Way Galaxy 
already. And its headquarters are right here in the United 
States, and with 250 million English monolinguals, it has 
absolutely nothing to worry about.
    However, as I mentioned, something that I think one might 
worry about is the fate of the immigrant languages that 
immigrants bring free of charge to the United States. This is a 
human capital asset in a global economy. It is a national 
asset.
    It is even a national security asset. The Iraq Study Group 
mentioned that only six out of 1,000 American embassy personnel 
in Iraq are fluent in Arabic.
    There is no contradiction in trying to be bilingual, and at 
the same time, as your mother, at being fluent in English.
    Ms. Sanchez. I understand that, and I think it is 
interesting that in this country we don't want bilingual 
education, yet we require 4 years of a foreign language in 
order to get into college. I think that is a contradiction that 
I have never quite been able to understand.
    I am interested in knowing a little bit more about how 
linguistic assimilation occurs. You mentioned that the way to 
encourage it is not to force somebody to speak in English only, 
but can you talk a little bit about linguistic assimilation?
    Mr. Rumbaut. Yes. Far and away, the number one determinant 
of becoming fluent in English and the acquisition of English 
fluency among immigrants is age at arrival.
    There is a biology and a neurology of language acquisition. 
That is why children pick it up so quickly. That is why if you 
learn it after puberty, you may be able to learn English, but 
not without a telltale accent. And the older you are at 
arrival, the thicker your accent. You will sound like Desi 
Arnaz, you know.
    So that alone will ensure the acquisition of English and 
speaking it and so on like a native. With the media, the 
pressure of peers and so on, that is going to take its way, and 
English is going to triumph no matter what.
    If you arrive here, as an elderly person, however, there is 
no way, no matter how interested you are in learning English, 
that you will be able to command it, let alone speak it like a 
native.
    Ms. Sanchez. May I ask the Chairwoman for unanimous consent 
for an additional 30 seconds to ask a very simple yes or no 
question?
    Ms. Lofgren. Without objection.
    Ms. Sanchez. Thank you.
    And, Professor Rumbaut, last question. Is there any reason 
to believe that the immigrants that we have seen of today--the 
last couple of decades--are any less desirous of learning 
English than were the immigrants of the 1920's and 1930's?
    Mr. Rumbaut. If anything, I would say that immigration is 
the sincerest form of flattery.
    Mr. Gerstle. Can I add something brief to that? I want to 
emphasize how important longitudinal studies are of the sort 
that Dr. Rumbaut is doing.
    If you look at a population at any point in time, it may 
appear to you that everyone is speaking Spanish or some other 
language. But if you break that population down for age and 
generation, you get a very different picture.
    In 1918 or 1915 or 1910, if you got an impression walking 
down the street of any major American city in the Northeast, 
Midwest or West Coast, you might be overwhelmed by the degree 
to which people did not seem to be able to speak English.
    But if you were to do the kind of longitudinal study that 
Dr. Rumbaut and his colleagues are doing for the present 
moment, you would see a similar kind of progress.
    Ms. Lofgren. The gentlelady's time has expired, and we will 
grant an additional 30 seconds so Dr. Fonte can----
    Mr. Fonte. Just a word about 1918 and 1920. One thing we 
are forgetting is one of the reasons there was a great success 
in the immigration was there was a cutoff bill in 1924 that--I 
wouldn't have been for it; it kept my relatives literally out 
of the country.
    But there was an immigration cutoff bill in 1924, so we 
basically had a pause from 1924 to 1965. We had low numbers of 
immigration that certainly helped the Americanization and 
assimilation process.
    Ms. Lofgren. Mr. Ellison?
    Mr. Ellison. Thank you, Madam Chair.
    My question, Dr. Fonte, is this. What year was the highest 
year of immigration in American recorded history? It is not a 
trick question.
    Mr. Fonte. It was around, I think, the early 20th century.
    Mr. Ellison. And in that year, what percentage of people 
living in America spoke a language other than English as their 
first language?
    Mr. Fonte. There was a very large percentage who did not 
speak English.
    Mr. Ellison. And America did okay, didn't it?
    Mr. Fonte. Did okay, yes. I just said the immigration 
cutoff of 1924 had a lot to do with it.
    Mr. Ellison. Right.
    Well, I mean, what do you think about that, Dr. Rumbaut? 
Was 1924 a year that sort of saved Americanism due to 
immigration?
    Mr. Rumbaut. Well, in the first place, the 1924 laws were 
not fully implemented until 1929. That is when the market 
crashed. It was the Great Depression that was most responsible 
for not letting people come into this country.
    You can pass all sorts of immigration laws, and 
undocumented immigration might follow because of the demand by 
the American economy, et cetera.
    If the issue is about language, however, then the passing 
of a law in 1924 is not what determined whether Italian-
Americans became fluent in English or not.
    What determined that, first and foremost, as I said, is age 
at arrival and generation. The second generation--at best, 
their Italian would be Italianish, like Spanglish. It would be 
that kind of a version.
    And the grandchildren of them, regardless of whether you 
passed a law or not, they would be speaking English only, 
because of the assimilative forces in American society with 
respect to language and the issue that I mentioned before about 
the biology of language acquisition, the schools, the pressure 
from peers, the media and all of that.
    Mr. Ellison. Dr. Gerstle?
    Mr. Gerstle. I agree with that. I think the cessation of 
immigration in 1924 in terms of the Eastern and Southern 
Europeans--it did not affect any peoples from the Western 
Hemisphere, so we should be very clear about that, who 
continued to come in large numbers, unless they were not 
allowed to come by other means.
    I think it was a factor only in terms of accelerating the 
transition demographically from the first to the second 
generation. And it also reminds us that the present day can 
never be precisely like the past.
    There are other elements of that history that are also 
different. The World War I army--even more importantly, the 
World War II army, which took 16 million young men and a few 
women out of their homes everywhere across America, put them 
together with each other in a way that was also probably 
important in terms of their Americanization and integration.
    My point is that we are unlikely to reproduce a 16-million-
person conscription army in 2007, 2008 or 2009, but we have to 
think hard about those institutions that will perform the kind 
of service that these other institutions did 30 years, 40 
years, 50 years ago.
    Mr. Ellison. You know, just an observation. I mean, part of 
what we seem to be debating today is what does it mean to be an 
American, and what impact does language have on that identity.
    And you know, I think that the fact that we have at least a 
chance to have those assets that Dr. Rumbaut talked about, 
which is the multiplicity of languages that people bring here 
when they immigrate, is--doesn't diminish American identity, 
and actually may add to it.
    And if American identity means anything, hopefully it means 
a respect for law, a respect for the first amendment to allow 
people to express themselves.
    So I mean, we are the only country that I know of that is 
bound together by a Constitution as opposed to long tradition, 
history, and culture. And maybe that is what we need to be 
focusing on, and maybe you don't need to speak English to do 
that.
    So, I mean, the founders of this country, did they say that 
we needed to speak English? And did they consider it?
    Dr. Rumbaut, do you know if Washington and Jefferson and 
Franklin thought about the need to have a national language?
    Mr. Rumbaut. Actually, Thomas Jefferson spoke fluent 
Spanish, and----
    Mr. Fonte. I have written on this. The founders definitely 
support English and a common culture. They have written on it 
extensively.
    Mr. Ellison. Well, why didn't they put it in the 
Constitution? I mean, they could have but they didn't.
    Mr. Fonte. Yes, it wasn't necessary to put it in the 
Constitution.
    Mr. Ellison. Well, why not? I mean, they knew that----
    Mr. Fonte. They wanted a minimal constitution, limited 
government.
    Mr. Ellison. But, Doctor, they put the things in there that 
needed to be there. Why didn't they put English?
    Would anybody else like to venture a view? No?
    Mr. Rumbaut. There is no need to do so.
    Mr. Ellison. Maybe they considered it and rejected it 
because they thought that English was not a sine qua non of 
American identity. Perhaps that is true.
    Mr. Gerstle. I think they also did feel, though, that the 
freedom of the new world would be so intoxicating that people 
would want to learn English.
    Mr. Fonte. Congressman King just quoted a letter from 
George Washington to John Adams in which he said he wants--the 
immigrants should be assimilated to our ways, our customs, our 
way of life, and we would become one people. Obviously, knowing 
English would be part of that.
    Mr. Ellison. They didn't put it in the Constitution.
    Ms. Lofgren. The gentleman's time has expired.
    And we have come to the conclusion of this hearing. I want 
to thank all the witnesses for their testimony today.
    And without objection, Members will have 5 legislative days 
to submit additional written questions to you, which we will 
forward. And we ask that you answer as promptly as you can so 
that we can make your answers part of the record.
    Without objection, the record will remain open for 5 
legislative days for the submission of any other materials.
    You know, Dr. Rumbaut, you mentioned as you started your 
testimony, what a country, really, that you came here as a 
young man, never expecting to be a witness here before the 
Congress.
    Ms. Hong, the counsel for the Subcommittee, wrote me a 
little note saying she came as an immigrant at age 12, never 
dreaming that she would be the counsel to the Immigration 
Subcommittee in the United States Congress.
    So we have much to be proud of in our wonderful country, 
and your testimony has been very helpful to us today.
    I would like to extend an invitation to everyone here today 
to attend our next hearing on comprehensive immigration reform. 
We will have one tomorrow afternoon at 3 p.m. in this very same 
room during which we will explore the impacts of immigration on 
State and local communities.
    Then on Friday morning at 9 a.m., we will focus again on 
comprehensive immigration reform as it relates to the future of 
undocumented students and reform.
    With that, this hearing is adjourned.
    [Whereupon, at 11:10 a.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Letter from a Majority of the Minority Members of the Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
Law requesting a Minority day of hearing to the Honorable Zoe Lofgren, 
Chairwoman, Subcommittee on Immigration, Citizenship, Refugees, Border 
                    Security, and International Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Letter from Gary Gerstle, Ph.D., Professor of History, Vanderbilt 
University to the Honorable Steve King, Ranking Member, Subcommittee on 
Immigration, Citizenship, Refugees, Border Security, and International 
                                  Law

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Responses to Post-Hearing Questions from Gary Gerstle, Ph.D., Professor 
                   of History, Vanderbilt University

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Responses to Post-Hearing Questions from Ruben G. Rumbaut, Ph.D., 
        Professor of Sociology, University of California, Irvine

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


   Responses to Post-Hearing Questions from Donald Kerwin, Executive 
           Director, Catholic Legal Immigration Network, Inc.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  Responses to Post-Hearing Questions from John Fonte, Ph.D., Senior 
                        Fellow, Hudson Institute

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
